<html>
<title> - LOCAL CHALLENGES OF GLOBAL PROPORTIONS: EVALUATING ROLES, PREPAREDNESS FOR, AND SURVEILLANCE OF PANDEMIC INFLUENZA</title>
<body><pre>[Senate Hearing 110-451]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-451
 
LOCAL CHALLENGES OF GLOBAL PROPORTIONS: EVALUATING ROLES, PREPAREDNESS 
              FOR, AND SURVEILLANCE OF PANDEMIC INFLUENZA 
=======================================================================

                                HEARINGS

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 2007

     THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS

                               __________

                            OCTOBER 2, 2007

          PREPARING THE NATIONAL CAPITAL REGION FOR A PANDEMIC

                               __________

                            OCTOBER 4, 2007

   FORESTALLING THE COMING PANDEMIC: INFECTIOUS DISEASE SURVEILLANCE 
                                OVERSEAS

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-846 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















































        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                Lisa Powell, Chief Investigative Counsel
                Jodi Lieberman, Professional Staf Member
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
       Theresa Manthripragada, Minority Professional Staff Member
             David Cole, Minority Professional Staff Member
             Tara Baird, Minority Professional Staff Member
                Thomas Bishop, Minority Legislative Aide
                    Jessica K. Nagasako, Chief Clerk

















































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
Senator Akakaiene, State of Maryland, October 2, 2007, 
  prepared statement.............................................   282

Responses to questions submitted for the October 4, 2007 Record from:

Mr. Gootnick.....................................................   290
Mr. Arthur.......................................................   293
Mr. Smith........................................................   306
Colonel Erickson.................................................   316
Mr. Hill.........................................................   322
Mr. Flesness.....................................................   350
Dr. Wilson.......................................................   356

Charts submitted for the Record for the October 4, 2007 hearing 
  by Ray Arthur..................................................   359
Additional Post-Hearing questions submitted for the 
  October 2, 2007 Record from Dr. Yeskey.........................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367




THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,

of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

Office of Preparedness and Response, Maryland Department of 
  Health and Mental Hygiene, State of Maryland, October 2, 2007, 
  prepared statement.............................................   282
Responses to questions submitted for the October 4, 2007 Record from:
  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing 
  by Ray Arthur..................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367


THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room 
  SD�09342, Dirksen Senate Office Buildiing 2007 hearing...........   261
Background for Octoober 2, 2007 hearing..........................   267
Background for October 4, 2007 hearing...........................   274
Issac Ajit, M.D., M.P.H., Acting Deputy Director of the Office 
  of Preparedness and Response, Maryland Department of Health 
  and Mental Hygiene, State of Maryland, October 2, 2007, 
  prepared statement.............................................   282

Responses to questions submitted for the October 4, 2007 Record from:
  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367



THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS


FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room 
  SD�09342, Dirksen Senate Office Building Maryland, October 2, 2007, 
  prepared statement.............................................   282

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability to 
  Contribute to Emergency Operation,'' dated May 2007, GAO�0907�09515, 
  submitted by Bernice Steinhardt................................   367


THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC 


The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building 60282

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367




THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

Office of Preparedness and Response, Maryland Department of Health 
  and Mental Hygiene, State of Maryland, October 2, 2007, prepared  
  statement......................................................   282

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367




THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

Background for September 28, 2007 hearing........................   261
Background for October 2, 2007 hearing...........................   267
Background for October 4, 2007 hearing...........................   274
Issac Ajit, M.D., M.P.H., Acting Deputy Director of the Office 
  of Preparedness and Response, Maryland Department of Health 
  and Mental Hygiene, State of Maryland, October 2, 2007, 
  prepared statement.............................................   282

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, 
  GAO�0907�09515, submitted by Bernice Steinhardt....................   367






THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

  Prepared statement.............................................   282

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290  
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability to 
  Contribute to Emergency Operation,'' dated May 2007, GAO�0907�09515, 
  submitted by Bernice Steinhardt................................   367




THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

Responses to questions submitted for the October 4, 2007 Record from:

  Mr. Gootnick...................................................   290
  Mr. Arthur.....................................................   293
  Mr. Smith......................................................   306
  Colonel Erickson...............................................   316
  Mr. Hill.......................................................   322
  Mr. Flesness...................................................   350
  Dr. Wilson.....................................................   356

Charts submitted for the Record for the October 4, 2007 hearing by 
  Ray Arthur.....................................................   359
Additional Post-Hearing questions submitted for the October 2, 2007 
  Record from Dr. Yeskey.........................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability to 
  Contribute to Emergency Operation,'' dated May 2007, GAO�0907�09515, 
  submitted by Bernice Steinhardt................................   367




THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS



FRIDAY, SEPTEMBER 28, 2007

U.S. Senate,
Subcommittee on Oversight of Government
Management, the Federal Workforce,
and the District of Columbia,
of the Committee on Homeland Security
and Governmental Affairs, 
Washington, DC.

The Subcommittee met, pursuant to notice, at 10:03 a.m., in Room SD�09342, Dirksen Senate Office Building

    Senator Coburn...............................................    55
Prepared statement:
    Senator Lieberman............................................    79

                               WITNESSES
                       Friday, September 28, 2007

Bernice Steinhardt, Director, Strategy Issues, U.S. Government 
  Accountability Office (GAO)....................................     3
Kevin E. Mahoney, Associate Director, Human Capital Leadership 
  and Merit System Accountability Division, Office of Personnel 
  Management (OPM)...............................................     4
Art Cleaves, Regional Administrator, Region 1, Federal Emergency 
  Management Agency (FEMA).......................................     6
Ray Morris, Executive Director, Federal Executive Board of 
  Minnesota......................................................    14
Kimberly Ainsworth, Executive Director, Greater Boston Federal 
  Executive Board................................................    16
Michael Goin, Executive Director, Cleveland Federal Executive 
  Board..........................................................    17

                        Tuesday, October 2, 2007

Kevin Yeskey, M.D., Deputy Assistant Secretary, and Director, 
  Office of Preparedness and Emergency Operations, Office of the 
  Assistant Secretary for Preparedness and Response, U.S. 
  Department of Health and Human Services........................    28
Christopher T. Geldart, Director, Office of National Capital 
  Region Coordination, U.S. Department of Homeland Security......    30
Robert P. Mauskapf, Director, Emergency Operations, Logistics, 
  and Planning in Emergency Preparedness and Response Program, 
  Virginia Department of Health..................................    32
Darrell L. Darnell, Director, District of Columbia Homeland 
  Security and Emergency Management Agency.......................    34

                       Thursday, October 4, 2007

David Gootnick, Director, International Affairs and Trade, U.S. 
  Government Accountability Office...............................    52
Ray Arthur, Ph.D., Director, Global Disease Detection Operations 
  Center, Centers for Disease Control and Prevention, U.S. 
  Department of Health and Human Services........................    54
Kimothy Smith, D.V.M., Ph.D., Acting Director, National 
  Biosurveillance Integration Center, Chief Scientist, Office of 
  Health Affairs, U.S. Department of Homeland Security...........    56
Colonel Ralph L. Erickson, M.D., DrPH., Director, Department of 
  Defense Global Emerging Infections Surveillance and Response 
  System (DOD-GEIS), U.S. Department of Defense..................    57
Kent R. Hill, Ph.D., Assistant Administrator for Global Health, 
  U.S. Agency for International Development......................    59
Nathan R. Flesness, Executive Director, International Species 
  Information System (ISIS)......................................    70
Daniel A. Janies, Ph.D., Assistant Professor, Department of 
  Biomedical Informatics, Ohio State University Medical Center...    73
James M. Wilson V, M.D., Director, Division of Integrated 
  Biodefense, Imaging Science and Information Systems (ISIS) 
  Center, Georgetown University..................................    74

                     Alphabetical List of Witnesses

Ainsworth, Kimberly:
    Testimony....................................................    16
    Prepared statement with attachments..........................   109
Arthur, Ray, Ph.D.:
    Testimony....................................................    54
    Prepared statement...........................................   203
Cleaves, Art:
    Testimony....................................................     6
    Prepared statement...........................................    98
Darnell, Darrell L.:
    Testimony....................................................    34
    Prepared statement...........................................   176
Erickson, Colonel Ralph L., M.D., DrPH.:
    Testimony....................................................    57
    Prepared statement...........................................   228
Flesness, Nathan R.:
    Testimony....................................................    70
    Prepared statement...........................................   246
Geldart, Christopher T.:
    Testimony....................................................    30
    Prepared statement...........................................   160
Goin, Michael:
    Testimony....................................................    17
    Prepared statement with attachments..........................   142
Gootnick, David:
    Testimony....................................................    52
    Prepared statement...........................................   184
Hill, Kent R., Ph.D.,:
    Testimony....................................................    59
    Prepared statement...........................................   238
Janies, Daniel A., Ph.D.:
    Testimony....................................................    73
    Prepared statement...........................................   252
Mahoney, Kevin E.:
    Testimony....................................................     4
    Prepared statement...........................................    94
Mauskapf, Robert P.:
    Testimony....................................................    32
    Prepared statement...........................................   166
Morris, Ray:
    Testimony....................................................    14
    Prepared statement...........................................   105
Smith, Kimothy, D.V.M., Ph.D.:
    Testimony....................................................    56
    Prepared statement...........................................   220
Steinhardt, Bernice:
    Testimony....................................................     3
    Prepared statement...........................................    80
Wilson, James M. V, M.D.:
    Testimony....................................................    74
    Prepared statement...........................................   254
Yeskey, Kevin, M.D.:
    Testimony....................................................    28
    Prepared statement...........................................   150

                                APPENDIX

Background for September 28, 2007 hearing........................   261
Background for Octoober 2, 2007 hearing..........................   267
Background for October 4, 2007 hearing...........................   274
Issac Ajit, M.D., M.P.H., Acting Deputy Director of the Office of 
  Preparedness and Response, Maryland Department of Health and 
  Mental Hygiene, State of Maryland, October 2, 2007, prepared 
  statement......................................................   282
Responses to questions submitted for the October 4, 2007 Record 
  from:
    Mr. Gootnick.................................................   290
    Mr. Arthur...................................................   293
    Mr. Smith....................................................   306
    Colonel Erickson.............................................   316
    Mr. Hill.....................................................   322
    Mr. Flesness.................................................   350
    Dr. Wilson...................................................   356
Charts submitted for the Record for the October 4, 2007 hearing 
  by Ray Arthur..................................................   359
Additional Post-Hearing questions submitted for the October 2, 
  2007 Record from Dr. Yeskey....................................   363
GAO Report entitled ``The Federal Workforce, Additional Steps 
  Needed to Take Advantage of Federal Executive Boards' Ability 
  to Contribute to Emergency Operation,'' dated May 2007, GAO-07-
  515, submitted by Bernice Steinhardt...........................   367


     THE ROLE OF FEDERAL EXECUTIVE BOARDS IN PANDEMIC PREPAREDNESS

                              ----------                              


                       FRIDAY, SEPTEMBER 28, 2007

                               U.S. Senate,        
            Subcommittee on Oversight of Government        
                   Management, the Federal Workforce,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    I would like to thank you all for joining us for this 
hearing on the role of Federal Executive Boards in the 
preparation and continuity of operations in the event of a 
pandemic influenza outbreak or other emergency.
    Although we spend billions of dollars preparing the 
National Capital Region--the heart of our Federal Government--
for emergencies, outbreaks, and potential terrorist attacks, 
more than 85 percent of the Federal workforce is employed 
outside of the Washington, DC area. Next week, we will hear 
about pandemic preparedness in the NCR and the global 
surveillance of tracking infectious diseases.
    Today, we begin to look at the preparation of the Federal 
workforce outside the Nation's capital and the support that 
FEBs can offer those communities.
    President Kennedy issued a directive in 1961 to create FEBs 
and allow the heads of Federal agencies in 10 regions around 
the country to come together to address human capital and 
emergency issues in those Federal communities. There are now, 
can you believe it, 28 boards in 20 States, including Hawaii.
    We invited the Executive Director of the Honolulu-Pacific 
Federal Executive Board, Ms. Gloria Uyehara, to be present and 
to give her testimony today, but regretfully she was unable to 
make the long trip.
    FEBs are a quasi agency with no institutionalized structure 
and no dedicated source of funding. OPM oversees the FEBs, but 
the staff is usually employed by a local agency detailee. They 
do not receive specific appropriated funds. Some have an 
executive director, some have no permanent staff at all. Each 
one of the 28 FEBs seems to have its own funding and operating 
structure.
    A Government Accountability Office report concluded in the 
year 2004 that Federal Executive Boards could play a greater 
role in the coordination of emergency preparedness and 
response. Their latest report released in May of this year 
reaches the same conclusion with a particular focus on pandemic 
influenza preparedness.
    GAO recommends the development of a strategic plan for FEBs 
to support emergency operations, including dedicated funding 
and performance measurements. I understand that OPM has been 
working on a strategic plan and consulting with the Federal 
Emergency Management Agency. I look forward to hearing more 
about these efforts.
    Public health experts at the World Health Organization 
(WHO) believe that the world is due for a pandemic influenza 
outbreak. In the past 100 years, pandemic influenza has killed 
43 million people around the world. Most recently, the Hong 
Kong flu killed 2 million people in 1968. The Centers for 
Disease Control and Prevention estimate that a flu pandemic 
could kill between 2 million and 7.4 million people worldwide.
    Today, the threat of the avian influenza, or the H5N1 
virus, continues to rise. WHO reports that there have been 328 
cases of infections in humans from South East Asia across the 
continent into Africa and the edges of Europe since 2003. Of 
those cases, 200 humans have died. While most cases of human 
infection of avian influenza are through contact with live 
poultry, in late August a group of doctors confirmed for the 
first time the spread of the H5N1 virus from human to human in 
Indonesia.
    There are treatments available, but there are also distinct 
challenges to emergency response for pandemic outbreak. Unlike 
one-time disasters, pandemics can last for an extended period 
of time, come in waves, and infect populations across a broad 
geographic area. They require the coordination of emergency 
response teams with health officials and community groups. Even 
more difficult, they can bring up sensitive issues of social 
distancing and treatment prioritization.
    I do not think that we will be able to address all of these 
issues at this hearing. I do, however, expect that our 
witnesses will shed light on a few fundamental questions. 
Should FEBs play a role in responding to a single emergency 
event or pandemic influenza outbreak? And if so, what is their 
capacity to play a significant role?
    From what I know about this organization, I think that 
group can really make a difference.
    I look forward to hearing from our witnesses on the 
establishment of emergency response, continuity of operations, 
and pandemic preparedness and response plans in relation to 
Federal Executive Boards.
    So I want to say welcome again to our panel and to 
introduce Bernice Steinhardt, Director of Strategic Issues, 
Government Accountability Office; Kevin Mahoney, Associate 
Director, Human Capital Leadership and Merit System 
Accountability, Office of Personnel Management; and Art 
Cleaves, Region 1 Administrator, Federal Emergency Management 
Agency.
    Our Subcommittee rules require that all witnesses testify 
under oath. Therefore, I ask all of our witnesses to stand and 
raise your right hand and take this oath.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Steinhardt. I do.
    Mr. Mahoney. I do.
    Mr. Cleaves. I do.
    Senator Akaka. Let it be noted for the record that the 
witnesses answered in the affirmative
    Welcome again, and before we begin, I want all of you to 
know that although your oral statement is limited to 5 minutes, 
your full written statements will be included in the record. So 
Ms. Steinhardt, will you please proceed with your statement?

TESTIMONY OF BERNICE STEINHARDT,\1\ DIRECTOR STRATEGIC ISSUES, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Steinhardt. Thank you very much, Mr. Chairman. We 
appreciate the opportunity to be here today to talk about the 
results of our review of Federal Executive Boards (FEBs) and 
their ability to contribute to the Nation's efforts to prepare 
for a potential flu pandemic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Steinhardt appears in the 
Appendix on page 80.
---------------------------------------------------------------------------
    The FEBs, as you pointed out, are unique entities in the 
Federal Government. Many of the challenges the country faces, 
and particularly those having to do with homeland security and 
emergency preparedness, can only be addressed through the 
collaborative efforts of networks of organizations working 
horizontally, across many Federal agencies, as well as among 
State and local governments and the private and nonprofit 
sectors. The FEBs are this kind of network.
    They operate in 28 cities and States, and consequently are 
uniquely positioned to improve the coordination of emergency 
preparedness efforts outside of Washington, DC, which, as you 
pointed out, is where the vast majority of Federal employees 
work.
    Given the nature of a pandemic flu, this capability could 
be particularly valuable. Because a pandemic flu is likely to 
last for months and will occur in many parts of the country at 
the same time, the center of gravity of the pandemic response 
will be in communities. As a result, planning for a pandemic 
will have to be integrated across all levels of government and 
the private sector as well, and it will have to be sustained 
over a long time.
    Let me turn now to some of the findings of our study. At 
the time of our review, all 14 Boards in our study were engaged 
in some type of emergency planning. All of them had an 
emergency communications network, an emergency preparedness 
council in place, and all of them had some degree of 
involvement with State and local officials in their emergency 
activities. Many of them, were also playing an active role in 
pandemic planning from sponsoring briefings to coordinating 
pandemic exercises involving numerous government and 
nongovernment organizations.
    Even looking ahead to a possible response role for them 
during a pandemic, FEBs have the potential to broaden the 
situational awareness of their member agencies and to provide a 
forum to inform their decisions, much like what they now do 
during inclement weather conditions.
    But the FEBs face a number of challenges in trying to live 
up to this potential. First, the Boards are not included in any 
national emergency plans, which means that their value in 
emergency support is often overlooked by Federal agencies who 
are unfamiliar with their capabilities. By including the Boards 
in emergency management plans, the role of the FEBs and their 
contribution in emergencies involving the Federal workforce 
could be much better communicated.
    Second, it will be difficult to provide consistent levels 
of emergency support services across the country given the 
variations in the capabilities of the FEBs. The Boards, as you 
pointed out, have no Congressional charter, and receive no 
Congressional appropriation. Instead they rely on voluntary 
contributions from their member agencies, including staff, 
which are typically just an executive director and an 
assistant. As a result, funding for the FEBs has been 
inconsistent which, in turn, creates uncertainty for the Boards 
in planning and committing to provide emergency support 
services. In fact, some Federal agencies that have voluntarily 
funded FEB positions in the past have begun to withdraw their 
funding support.
    Our report outlines several actions to address these 
challenges. First, we recommended that OPM work with FEMA and 
the Department of Homeland Security to formally define the FEB 
role in emergency planning and response. We also recommended 
that OPM, as part of its strategic planning efforts, develop a 
proposal for an alternative to the current voluntary 
contribution mechanism that would address the uncertainty of 
funding for the Boards.
    In closing, Mr. Chairman, I want to underscore that the 
FEBs today offer us a potentially--and I want to underline 
potentially--important mechanism to support pandemic planning 
and the Federal workforce. That potential still remains to be 
realized in many cases where the Boards' capacity still needs 
to be developed.
    On the other hand, for an event like a pandemic flu, FEBs 
are tailor-made for working across agency and government lines. 
As one FEMA official told us, if they did not exist, we would 
have to create them. With that, I will conclude my statement 
and be happy to answer any questions. Thank you.
    Senator Akaka. Thank you very much for your statement. Mr. 
Mahoney.

  TESTIMONY OF KEVIN E. MAHONEY,\1\ ASSOCIATE DIRECTOR, HUMAN 
 CAPITAL LEADERSHIP AND MERIT SYSTEM ACCOUNTABILITY DIVISION, 
                 OFFICE OF PERSONNEL MANAGEMENT

    Mr. Mahoney. Good morning, Mr. Chairman, I am pleased to be 
here on behalf of our Director, Linda Springer, to discuss the 
role of the Federal Executive Boards and how they can assist 
with pandemic preparedness and other Federal emergency planning 
and response efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mahoney appears in the Appendix 
on page 94.
---------------------------------------------------------------------------
    We appreciate that this Subcommittee has recognized the 
value of these Bards and we share your commitment to increasing 
their effectiveness.
    As you mentioned, the Presidential Directive established 
the Boards, and the Boards were directed to work on interagency 
regional cooperation and to establish liaison with State and 
local governments. The contribution these Boards can make 
towards emergency preparedness and assistance for Federal 
employees and their families and for all Americans have become 
more evident as a result of the terrorist attacks of September 
11, 2001 and Hurricane Katrina in 2005. The National Strategy 
for Pandemic Influenza, issued by President Bush in 2005, also 
provides opportunities for Federal Executive Boards to play a 
critical role, which I will discuss further in my testimony.
    In close collaboration with the Chairs and the Executive 
Directors of the Federal Executive Boards, OPM has established 
two primary lines of business: Emergency preparedness, security 
and employee safety; and human capital preparedness. In 
addition to these lines of business, the Boards are also 
expected to focus on establishing communication channels that 
can help build understanding and teamwork among Federal 
agencies in the field. The experiences of September 11, 2001 
and Hurricane Katrina have demonstrated these relationships 
need to be in place before an emergency occurs.
    While the Federal Government received criticism for its 
response to Hurricane Katrina, there were many successes that 
have not yet received the same level of attention. In 
particular, I wanted to acknowledge today the key role that was 
played by the New Orleans Federal Executive Board and its 
Executive Director, Kathy Barre, and just underscore some of 
the things they did. The Board coordinated with OPM and FEMA to 
collect information, and communicated issues of concern 
regarding the Federal workforce from Federal agencies at the 
local level.
    The Board also facilitated sharing of Federal workforce 
information to and from Washington by organizing 
teleconferences with FEMA and OPM and other agencies.
    Finally, the Board helped to identify both the needs and 
the status of local Federal workers and their families to make 
sure that they were part of FEMA's response activities.
    Two more recent events have really brought home the 
importance of these Boards and the relationships and 
communication channels they bring to the table at the Federal/
regional level during emergencies. The first is the most recent 
Minnesota bridge collapse, and you will hear more from Ray 
Morris later today about that event. The second was an event of 
tuberculosis with a HUD employee in New York City. In both of 
these cases, the Board, through its relationships with State, 
local, and Federal agencies, was able to gather information, 
communicate information, and assure the safety of Federal 
employees. Quick action, especially in New York, alleviated 
many employee concerns about tuberculosis and how tuberculosis 
can sometimes be spread.
    Director Springer and all of us at OPM take very seriously 
the direction that President Bush has assigned to our agency 
with respect to pandemic preparedness. To help departments and 
agencies mitigate the effects of a pandemic event, OPM has 
developed human resource policies and mechanics to assure 
safety of the Federal workforce and continuity of Federal 
operations. We have provided agencies with training, 
information for their human resources, and emergency 
preparedness personnel. We have also conducted town hall 
meetings with the Department of Health and Human Services to 
educate Federal employees on pandemic preparedness.
    Mr. Chairman, the recent report you requested from the 
Government Accountability Office concerning Federal Executive 
Boards and their emergency operations role acknowledges much of 
what I have described in my statement. The report also makes 
four recommendations that I would like to address briefly.
    First, GAO recommended that OPM work with FEMA to develop a 
memorandum of understanding that formally defines the role of 
the FEBs in emergency planning and response. My staff has met 
with FEMA and later in October, I will also meet with Dennis 
Schrader, who is the Deputy Administrator at FEMA, to finalize 
an MOU. We have made good progress in that area.
    Second, GAO recommended that OPM initiate discussions with 
Homeland Security and other stakeholders. We have met with the 
White House Homeland Security Council staff and we are 
integrating the Federal Boards into planning.
    In conclusion, Mr. Chairman, I would like to say that OPM 
is proud of the accomplishments of the Federal Executive 
Boards, especially with planning and response to emergency 
situations, where lives are at stake and government services 
are critical. We will continue to work with the Boards and 
agencies to better prepare the Federal workforce at the 
regional level for a possible pandemic influenza or other 
emergency event.
    I am happy to answer any of your questions. Thank you.
    Senator Akaka. Thank you very much, Mr. Mahoney. And now, 
Mr. Cleaves, please proceed with your testimony.

TESTIMONY OF ART CLEAVES,\1\ REGIONAL ADMINISTRATOR, REGION 1, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Cleaves. Mr. Chairman, thank you very much for inviting 
me to appear before your Subcommittee today and highlight our 
activities with Greater Boston Federal Executive Board and to 
underscore our strong working relationship.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cleaves appears in the Appendix 
on page 98.
---------------------------------------------------------------------------
    Mr. Paulison laid out a vision for a new FEMA that 
integrates and incorporates missions assigned to FEMA by the 
Post-Katrina Emergency Management Reform Act of 2006. An 
important part of that vision is an enhanced role in regional 
preparedness to include the Federal Executive Boards.
    In the new FEMA, preparedness activities will be integrated 
into a regional focus designed to serve the needs for States 
and local communities. FEMA regions will become networking 
organizations, instrumental in the development of a seamless 
connection with all of our partners, Federal, State, tribal, 
local, homeland security advisors, emergency management 
directors, and the private sector, as well. This is going to 
result in a full preparedness strategy carrying awareness 
through the State to the individual communities. This awareness 
will become embedded through training and exercising from a 
local level to the Federal level.
    Our approach and preparedness is all hazard approach, 
including terrorist events, other manmade events, natural 
disasters and, of course, including a pandemic.
    The Federal Executive Boards and FEMA share a common role 
as coordinating elements. The Federal Executive Boards are a 
critical part of preparedness in response, recovery, 
mitigation, and in particular continuity of operations and 
continuity of government.
    The Greater Boston Federal Executive Board is an integral 
part of our preparedness and our preparedness strategic 
planning. Their proven ability to effectively coordinate with 
all Federal organizations makes the FEB a key factor in 
preparing for a potential pandemic.
    Because of New England's compact geographical size, we 
maintain a very close working relationship with the States and 
also the Federal organizations. And maintaining this 
relationship is greatly facilitated by the effectiveness of the 
Executive Director of the Greater Boston Federal Executive 
Board, Kim Ainsworth, and she will be testifying on the second 
panel today.
    FEMA Region 1 is going to be coordinating a regionwide 
pandemic exercise during the next quarter. This is the first 
exercise of this size, scope or magnitude in New England. The 
goal is to bring Federal/State partners together to review the 
issues that present themselves and to better understand the 
roles and responsibilities of government during any pandemic. 
The Federal Executive Boards play an important role in pandemic 
preparedness, acting as a coordinating agency for the Federal 
departments who will have the lead in the pandemic outbreak. 
These departments include Department of Health and Human 
Services, as well as the Centers for Disease Control. Those are 
key components during this response element. But because of the 
nature of a pandemic and its potential to affect large 
populations, the FEBs' ability to coordinate with all the 
Federal agencies in a timely manner is essential.
    The FEB and its relationship building capability can be a 
key resource in the event of a pandemic. Let me underscore just 
a couple very quickly, of coordination elements that they can 
do. I mentioned the coordination between agencies when social 
distance is required, and that is all agencies in the Federal 
Government.
    The FEB is also a conduit for resource support during any 
response operation. And the nature of a pandemic will severely 
reduce the workforce. The greatest concern of government, and 
in private sector as well, is the numbers of personnel. The FEB 
is postured to reach all Federal agencies, and give us 
additional response personnel that we might need in the 
response phase of a pandemic.
    The FEB can and should play a major role in pandemic 
preparedness and response. By pre-identifying unique 
capabilities that exist within the FEB and by establishing 
roles and responsibilities it will undertake during a pandemic 
that FEB can engage from the outset to enhance response effort 
and integrate all Federal agencies.
    The FEB has also been engaged in the area of continuity of 
operations and continuity of government in Region 1 by 
assisting coordination of training between all member agencies. 
As I previously indicated to you, we are planning a major 
pandemic influenza exercise in the Region in December. This 
exercise is going to solicit active participation from all the 
Federal agencies and the Greater Boston Federal Executive Board 
will again play an integral role in part of that coordination.
    This exercise is going to provide an opportunity for all of 
the Federal agencies to gain a more accurate picture of their 
continuity of operations and their continuity of government 
posture. Overall, we can see very quickly that the Federal 
Executive Boards are an integral part of the fabric of the new 
FEMA.
    In conclusion, I would like to thank you again for the 
opportunity to give you this testimony today and I look forward 
to any questions. Thank you.
    Senator Akaka. Thank you very much, Mr. Cleaves.
    I want to thank all of you for your testimony. I must tell 
you that I am delighted to hear what you have said here.
    The GAO report says that FEBs can be a valuable asset 
because of its informal relationships--highlights the 
importance of informal relationships with governmental and 
nonprofit partners. GAO recommended that FEBs' role be 
formalized. So what I am interested in, what are your thoughts 
in the recommendation by the GAO that FEBs' role be formalized? 
Ms. Steinhardt.
    Ms. Steinhardt. Well, it is wonderful that the FEBs have 
these relationships with other organizations at other levels of 
government now and have taken, in some cases, an active role in 
working with them on emergency preparedness activities. But it 
is not enough to do this on an informal basis. Some of the 
people we talked to were not familiar with the fact that they 
had a role to play and so they are an underutilized resource in 
some instances.
    But beyond that, it is important in an emergency response 
for everyone to understand what role they are going to play in 
advance of the emergency. Certainly, we learned this lesson in 
Hurricane Katrina and other national disasters. Those roles 
have to be clearly identified beforehand. And so it is 
important, if FEBs are going to play a role in planning and 
preparedness and response, that they be formally identified.
    Senator Akaka. So your thoughts are that you are on the 
side of formalizing that?
    Ms. Steinhardt. Absolutely. For that reason we recommended 
that there be some formal agreement between OPM and FEMA to 
formalize that role and to explore the possibility of including 
the FEBs actually in the National Response Plan or other 
national plans.
    Senator Akaka. Thank you. Mr. Mahoney.
    Mr. Mahoney. We agree. The role of the FEBs is critical to 
any response to an emergency that might occur and that their 
role should be formalized. As I mentioned earlier, we are and 
have been meeting with FEMA to establish an MOU that would 
formalize the FEBs role and any response to an event. In 
addition, through the creation of our strategic plan with the 
FEBs, we are moving in a direction where the FEBs will focus, 
hopefully, about 50 percent of their time on emergency 
preparedness.
    We are taking steps through both our own work with the FEBs 
as well as our work with FEMA to formalize a role for the FEB 
in any emergency event.
    Therefore, we do agree with GAO that there should be a 
process in place that identifies the role of the FEB.
    Senator Akaka. Thank you. Mr. Cleaves.
    Mr. Cleaves. Mr. Chairman, I could not agree more 
thoroughly with that.
    Mr. Mahoney mentioned that the MOU is now being formulated 
between FEMA and the FEBs, and that will be a critical part 
both in the preparedness area and in a response phase, as well. 
If all organizations understand those roles and 
responsibilities, we can multiply the horsepower and get that 
much more preparedness done and understand roles and response 
and recovery. It is really part of the national response 
framework, as well.
    So we could not agree more.
    Senator Akaka. Is there a chance that the informal 
relationships could be threatened by formalizing those 
relationships? Ms. Steinhardt.
    Ms. Steinhardt. I do not think so. I think the informal 
relationships, the relationships among people, are vital. That 
is where the relationships occur. But I think it is equally 
important for those relationships to be understood and 
formalized so that people are very clear about what they are 
expected to do, both in advance of a national emergency or a 
local emergency as well as during an emergency. Having clear 
expectations is critical.
    Senator Akaka. Mr. Mahoney.
    Mr. Mahoney. Mr. Chairman, I do not think you can 
underscore enough the importance of the informal relationships 
that exist at the local level. I had a first-hand glimpse of 
this in August when the Minnesota bridge collapsed and Ray 
Morris, who was in Washington at the time, attending our annual 
FEB conference, was able to communicate with contacts at the 
State, local, and national levels. I am sure he will talk more 
about that in his testimony.
    It was an opportunity for me to watch how these informal 
networks can come together so quickly because people already 
know each other. They do not have to, at the site of an 
emergency, introduce each other and get to know who does what, 
it has already been established.
    The formalizing process, I think, just makes it easier for 
everybody in Washington to understand how to communicate with 
the FEBs and what channels to use so that the informal process 
really then begins to take shape at the site level.
    I agree with Ms. Steinhardt, I do not see any danger in 
formalizing this.
    Senator Akaka. Mr. Cleaves.
    Mr. Cleaves. I also agree with that. I think formalizing 
it, again, will multiply the efforts.
    So many times in an informal relationship there is a 
crossover, there is a duplication of effort. When you formalize 
it then, in fact, you will get more effort accomplished in the 
end, a much better way to do it.
    Senator Akaka. Mr. Cleaves, are there similar organizations 
to FEBs in the State, local, or private sector that play a 
formal or informal role in responding to an emergency or 
pandemic outbreak?
    Mr. Cleaves. Yes, Mr. Chairman. The first one that comes to 
mind is the volunteer organizations active during disasters, 
all volunteer groups that come forward. So there are many 
organizations that respond during that phase.
    One of the things that I captured in my notes here is that 
training and exercise and then, in fact, I could tell you, in 
our case, the Federal Executive Board in the Greater Boston 
area is an integral part of what we do. It is an organization 
that can reach all of the Federal agencies, not just the major 
responders, but all organizations. So it is a critical piece of 
what we do. But there are many organizations that we try to 
have memorandums of understanding with so again it is not a 
duplication of effort but a better, broader preparedness 
effort.
    Senator Akaka. Ms. Steinhardt, a pandemic outbreak could 
last a long time.
    Ms. Steinhardt. Right.
    Senator Akaka. Come in waves, as I said, and happen over a 
broad geographic region, which would make continuity of 
operations planning especially challenging. What strengths do 
FEBs have for dealing with emergency response for an event 
unfolding over an extended time and over a geographic area?
    Ms. Steinhardt. That is an excellent question. One of the 
strengths of the FEBs is that they have an established network 
of Federal officials in their location. Because a pandemic, as 
I said in my statement, will last for a long time and occur all 
over the country, unlike other kinds of disasters where the 
Federal Government can mobilize a lot of resources to a single 
location, communities are going to have to deal with a pandemic 
flu largely on their own. They are going to have to do--as you 
say, they are going to do it over an extended period of time. 
So it is going to involve a sustained level of leadership.
    And because FEBs are in those communities, because they 
have established relationships, because they represent the 
largest Federal agencies, they can bring that kind of sustained 
leadership over an extended period of time.
    Senator Akaka. OPM is in the process of developing a 
national strategic plan for FEBs with input from FEMA. For some 
FEBs the guidance will be welcome direction, and for others it 
could read outside the scope of their capacity. Given the 
differences among FEBs around the country, how are you ensuring 
that strategic plans reflect the capacity of each FEB? Mr. 
Mahoney.
    Mr. Mahoney. Mr. Chairman, in OPM's review of the FEBs one 
of the things we are looking at is the question of whether FEBs 
are staffed appropriately by the size of the population they 
serve, which I think gets to the heart of your question. We 
have not reached any firm conclusions yet. Most FEBs operate on 
a model with an Executive Director and an Assistant. We are not 
sure if that model holds for an area like Los Angeles, which 
has a large population.
    We are in the process of evaluating what level of staffing 
is appropriate.
    As you know, the Board itself comprises the most senior 
persons in agencies located within the FEB's geographical area, 
and therefore Board size varies. But, the support of the Board 
is critical, and I think as we move further into emergency 
preparedness, roles having the FEB properly staffed to carry 
out those functions is going to be an important issue on which 
OPM should work.
    Senator Akaka. Mr. Cleaves.
    Mr. Cleaves. We are involving the Greater Boston Federal 
Executive Board in our strategic planning starting this year. 
And I do not think in the past we have done it as thoroughly 
and deeply as we are attending to this year. We have already a 
very strong working relationship. But we are going to involve 
them early in the preparedness portions, the planning portions, 
and then intricately in the exercises.
    As I mentioned, for those Federal organizations that do not 
normally respond to a major event, there are all the other 
agencies that will need that coordination. That is a big role 
for the Federal Executive Board to take on.
    We have also made working space in our Boston office for 
Ms. Ainsworth so she can become a closer part of knowing what 
we do on a day-to-day basis. So that is going to be a more 
integral working relationship than there has been before.
    Ms. Steinhardt. Mr. Chairman, if I can add to Mr. Mahoney's 
comments particularly, one of the issues we touched on in our 
report dealing with capability of the FEBs and their varied 
capability had to do with performance expectations for the 
executive directors. Currently, they are employees of a host 
agency in each of the regions. In some instances their 
performances expectations and their performance is assessed by 
that host agency. In some cases, it is by the chair of the 
Federal Executive Board. In some cases, OPM plays a part in 
fact, and in some cases it does not.
    And so one of our recommendations was for OPM to develop a 
more consistent set of performance expectations for the 
executive directors. We think that will help a lot.
    Senator Akaka. This question will be for OPM. When can we 
expect to see the strategic plan? And how are you incorporating 
GAO's recommendation?
    Mr. Mahoney. Well, to add to Ms. Steinhardt's comments, we 
very much agreed that there should be a common set of 
performance metrics for the FEBs. Earlier in your comments, you 
mentioned the funding issue. We think it is important, as we 
ask agencies to fund the FEBs, to be able to demonstrate what 
the FEBs will accomplish. Therefore, part of our review in the 
strategic plan is to work with the Executive directors and the 
Board chairs to develop a set of performance metrics on which 
we can all agree.
    We think, with relationship to the strategic plan, we 
should have something finalized this coming winter. We have 
been working on it. As you know, there are 28 separate 
locations and communication and coordination take a little 
time. We think by this winter we should have a finalized 
strategic plan.
    Senator Akaka. Mr. Mahoney, it is my understanding that in 
the event of a pandemic outbreak local health departments may 
not have the capacity to treat the critical personnel at 
Federal agencies that must be at work. Some Federal agencies 
are already identifying critical personnel and stockpiling 
medication. Have you begun to look at how agencies are handling 
this issue in the field? And how can FEBs help in this effort?
    Mr. Mahoney. Mr. Chairman, in a number of cities the FEBs 
are working with State and local authorities to identify the 
appropriate distribution of vaccines in the event of an 
emergency and I guess the appropriate order in which vaccines 
should be delivered. Some of this work is still in the early 
stages, but we are encouraging all of the FEBs to get more 
involved in this particular process because we see it as key 
not only for the Federal population, but also for the people 
locally in those areas. We are working toward a program with 
respect to vaccine distribution.
    Senator Akaka. Mr. Cleaves, the testimony presented today 
shows some of the ways that FEBs can support the overall 
response efforts in the event of a pandemic and other 
emergency. What do you see as the realistic responsibilities 
that should be given to FEBs in the event of an emergency or 
pandemic?
    Mr. Cleaves. I think the two areas that I mentioned earlier 
is the coordination that they provide. We have got a proven 
track record in the Greater Boston area of Ms. Ainsworth being 
able to coordinate with all of the Federal agencies very 
effectively during a pandemic. There is going to be a very 
reduced workforce so it is going to be critical for that.
    The second one I mentioned in the testimony is the ability 
for the FEB to identify additional workers in that response 
phase. We have a very deliberate and defined action that we 
take, whether it is a hurricane coming into the region or 
whether it is a pandemic, that we move our response 
coordination center out in Maynard, Massachusetts. The FEB can 
communicate with all Federal agencies what our strategy will be 
and then also what their response objectives can be during a 
pandemic.
    Senator Akaka. Mr. Mahoney and Ms. Steinhardt, FEBs do not 
conduct performance reviews, provide pay adjustments, or 
provide bonuses to participants. Their employing agencies do 
that. This presents challenges for establishing performance 
measures. When talking about establishing performance standards 
for FEBs, how do you recommend establishing them? And who 
should be responsible for evaluating them? And whose 
performance should be measured?
    Ms. Steinhardt.
    Ms. Steinhardt. An excellent question and one that is, I 
think, very important. We recommended that this be part of the 
strategic planning effort that is now underway, OPM working 
with the Federal Executive Boards. To the extent that OPM is 
setting expectations for the FEBs for human capital, in the 
area of human capital management and in emergency preparedness, 
then OPM needs to be involved in setting those standards so 
that there is some consistency across the country.
    At the same time though, it is important to recognize that 
one of the strengths of the FEBs is the fact that they are 
local, that they are responsive to their local conditions, to 
their regional perspective. So there needs to be some 
collaborative effort, I think, between OPM and the FEBs and the 
members of the FEB on what those standards should be.
    Senator Akaka. Mr. Mahoney.
    Mr. Mahoney. As I said earlier, we are in the process of 
working on a common set of performance measures. It is 
problematic that the FEB directors report to a variety of 
different agencies. But I think the common denominator is that 
all of those agencies are interested in employee security and 
human capital readiness.
    As we go about looking at how to develop agreed-upon 
standards, I think we will work very closely with the agencies 
that support the FEBs and get their buy-in on a set of plans 
that both support the FEBs and support their own agency needs 
with respect to employee security and human capital readiness.
    Senator Akaka. As I mentioned here, I was asking your 
thoughts on any recommendations on how to establish this and 
also who should be evaluating. Of course, OPM being the 
personnel, could be. The other question was who should you 
measure? But this is something that we need to really think 
about.
    Mr. Mahoney, OPM has oversight of the operations of FEB. 
But most FEB operations are directed by the FEB chairman and 
the executive director. All participation by agency heads is 
voluntary. That is the setup. If we place greater emphasis on 
FEBs in participating in emergency response plans, who 
ultimately would be accountable for their efforts?
    Mr. Mahoney. Mr. Chairman, we do have oversight over the 
FEBs and we have established, as I mentioned, these two lines 
of businesses because we feel that they are most important in 
the ongoing collaboration and coordination in Federal agencies 
outside of Washington, DC. We take very seriously our role in 
overseeing how this is accomplished.
    As we have discussed here this morning, this is a very 
localized organization which has a national responsibility. We 
have to continue to work with the local agencies as well as 
setting standards we think the agencies need to live up to. 
Ultimately, each agency has to evaluate how their FEBs are 
performing. OPM plans to have a significant role in that 
discussion.
    Senator Akaka. I want to thank you all for your responses. 
It is very evident that coordination, collaboration, working 
together, trying to keep it as a formalized organization 
informally. And so this is a challenge. I am glad that you are 
thinking about this and we look forward to us continuing to 
work on this because finally the mission is to deliver in 
emergencies. And unless, as you mentioned, we plan beforehand 
we will not do as well.
    I would tell you after 20 hearings on Hurricane Katrina we 
have learned a lot and so much has to be done. I tell you one 
of the problems with Hurricane Katrina that many people, I 
think, miss what I caught in the 20 hearings was personnel, and 
that there were positions that were vacant. So therefore, it 
could not be carried forward.
    So all of these need to be part of the strategic planning 
for the future.
    I appreciate your thoughts on this and was glad, as I said 
at the beginning, to what you have said about bringing it 
together and the importance of working from the regional level 
all the way up through the agencies. But we have to communicate 
and take all advantage of communicating. And also, the other 
part to that as we are working here is that we need to make 
good use of our information technology. That technology is 
building fast and we need to use it well.
    So again, thank you so much for your responses and I really 
appreciate it.
    Let me call panel two forward. The witnesses are Ray 
Morris, Executive Director of the Federal Executive Board of 
Minnesota; Kimberly Ainsworth, Executive Director of the 
Greater Boston Federal Executive Board; and Michael Goin, 
Executive Director of the Cleveland Federal Executive Board.
    Our Subcommittee rules, as I mentioned earlier, require 
that all witnesses testify under oath. Therefore, I ask all of 
the witnesses to please rise and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Morris. I do.
    Ms. Ainsworth. I do.
    Mr. Goin. I do.
    Senator Akaka. Let it be noted for the record that the 
witnesses answered in the affirmative
    Again, I want to welcome you to this Subcommittee. As a 
reminder, your oral statements are limited to 5 minutes but 
your full written statements will be included in the record. So 
Mr. Morris, will you please proceed with your statement.

    TESTIMONY OF RAY MORRIS,\1\ EXECUTIVE DIRECTOR, FEDERAL 
                  EXECUTIVE BOARD OF MINNESOTA

    Mr. Morris. Good morning, Mr. Chairman. I am Ray Morris, 
Executive Director of the Minnesota Federal Executive Board.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morris appears in the Appendix on 
page 105.
---------------------------------------------------------------------------
    As a FEB director, I am responsible for the coordination of 
over 120 Federal Government agencies within Minnesota and 
intergovernmental relations with State and local government.
    There is a great need among FEB directors to have our 
current work and function reflected in Federal emergency 
planning documents like the National Response Framework. This 
action will enhance our effectiveness and credibility for the 
work that we are doing with Federal, State and local government 
agencies. We fill a niche that the FBI, FEMA, and the military 
do not focus on, the Federal workforce in field areas.
    Established in 1961, FEBs had our roots in the cold wars, 
ensuring the continuity of government in the field, a duty that 
is perhaps more important in today's threat environment.
    An example of our work in communicating crisis information 
is as recent as last month. August brought Minnesota two 
federally declared disasters, one natural and one manmade. The 
intergovernmental response to the sudden collapse of the eight 
lane I-35 W bridge in Minneapolis showed the Nation the 
excellent level of preparedness that exists within our State. 
Although 13 lives were lost, over 108 people survived the over 
60 foot fall to the river due to the heroic efforts of all 
levels of government personnel.
    Another disaster struck Minnesota 17 days later as up to 20 
inches of rain fell across seven counties in Southeast 
Minnesota causing massive flooding resulting in seven 
fatalities and $67 million in damage.
    During both of these events, our FEB acted swiftly, passing 
critical information from local and State government sources to 
all Federal agencies on the recovery operations, road detours, 
and other potential workforce impacts.
    The response to these disasters by all levels of government 
in the State was exemplary and was due to one vital element: 
Trust through previous friendships. No business cards were 
exchanged during any of these disasters among the responders. 
FEB Minnesota has worked hard over the past 10 years, serving 
as a catalyst in the Federal sector, to establish and maintain 
these relationships with State and local government who are our 
first responders.
    We have helped many of our State and local partners through 
our educational activities. Since 2001 our Federal Executive 
Board has sponsored five tabletop exercises that are open to 
all levels of government. In the past year we held two of 
these. Pan Flu II, that had close assistance from the Minnesota 
Department of Health and the Minnesota Division of Homeland 
Security and Emergency Management.
    The most recent that we held was Going to Red, that 
explored the national threat of nuclear terrorism, culminating 
with a 10 kiloton improvised nuclear device detonated outside 
the capital city of Saint Paul.
    During the past 6 years, we presented 20 half or full day 
seminars with expert speakers on the hot topics of the day. And 
since 2005 we have worked very extensively with officials at 
the State Department of Health on a program to cover Federal 
workers, critical Federal workers in the event of a pandemic or 
a bioterrorism release so that they could continue their 
crucial duties without interruption.
    Three elements come together to make our FEB strong and 
effective. The first is an active executive committee, 
comprised of 33 senior Federal officials. The second is a great 
intern program with over a dozen colleges and universities. And 
the final part of the equation in making our FEB strong and 
effective as financial and administrative support by a key 
Federal agency, the Department of the Interior, through the 
National Business Center in the Office of the Secretary.
    In summary, including FEB roles and documents, in documents 
like the National Response Framework will minimize the 
duplication of Federal resources, especially in the areas of 
crisis communications and training programs within Federal 
field areas. Defining FEBs' existing functions in these 
planning documents would foster a clear understanding of our 
roles by the State and local governments that we partner with 
on our training programs and preparedness activities. Thank you 
again, Mr. Chairman, and I look forward to your questions.
    Senator Akaka. Thank you very much, Mr. Morris. Ms. 
Ainsworth, please proceed with your statement.

TESTIMONY OF KIMBERLY AINSWORTH,\1\ EXECUTIVE DIRECTOR, GREATER 
                 BOSTON FEDERAL EXECUTIVE BOARD

    Ms. Ainsworth. Good morning, Mr. Chairman, and thank you 
for this opportunity to appear before you today to discuss the 
role of Federal Executive Boards in pandemic preparedness. My 
name is Kimberly Ainsworth and I am an employee of the EPA New 
England Region and have been assigned to a long-term detail as 
Executive Director of the Greater Boston Federal Executive 
Board. I am here today in that capacity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ainsworth with attachments 
appears in the Appendix on page 109.
---------------------------------------------------------------------------
    In this role I have primary responsibility for the 
coordination and implementation of our programs and activities 
under our lines of business. Federal Executive Boards have 
played a meaningful role in emergency planning and response in 
many ways since created in 1961. The U.S. Government is the 
Nation's largest employer and among the top five in many areas 
across our country, including Massachusetts. During emergencies 
it is our responsibility to act uniformly to ensure the safety 
of our employees and customers.
    To that end, Federal Executive Boards play a vital role 
from a workforce planning perspective. Although we are not 
first responders, emergency managers, or law enforcement 
professionals we can and do play an important role in public 
safety. Federal Executive Boards are positioned to provide 
crucial communication links among Federal agencies and State 
and local officials alike.
    More than 180 Federal agencies maintain a presence in 
Massachusetts and approximately 90,000 citizens in our State 
are employed civilian, military, and postal positions. Although 
each Federal agency is responsible for the safety of its 
employees and the continuity of operations, collaboration is 
extremely important.
    Our experiences in Boston prior to 2001 focused primarily 
on weather-related events. However, in the post-September 11 
environment local agencies have greater needs and expectations 
of us. In 2002, Boston unveiled a comprehensive emergency 
decision and notification plan outlining an all hazards 
approach to emergency preparedness, response, and recovery from 
a workforce perspective including during a pandemic.
    We collected 24/7 contact information for our local agency 
decisionmakers. A variety of communication strategies were 
implemented and designed to ensure that we could disseminate 
accurate, up-to-date, and consistent information around the 
clock.
    Our experiences have taught us that there is a significant 
role that we serve during what I call perceived emergencies. 
For example, the first national political convention, since the 
2001 terrorist attacks, took place in Boston in 2004 and was 
designated as a National Special Security Event. The Federal 
Executive Board represented the Federal workforce during the 
year-long security planning and also during the event itself.
    Although it experienced no disruptions, there were several 
instances where rumor threatened public safety. The Federal 
Executive Board stepped in several times to coordinate the 
collection and dissemination of real-time information from 
subject matter experts within our Federal law enforcement 
community. We were able to quickly provide local agency leaders 
with accurate, consistent, and up-to-date information to make 
informed decisions to ensure the safety of the Federal 
workplace.
    We employed similar procedures when, on July 7, 2005, 
Americans awoke to reports of terrorist attacks on London's 
public transportation system. At 9:38 a.m. in Boston on that 
same day two subway trains were involved in a minor collision 
underground. Although officials quickly determined that there 
was no link to the London incidents, an intense flow of 
misinformation circulated rapidly and the Federal Executive 
Board was called in to action.
    There are so many examples nationwide. From massive crowds 
descending on government sites for civic rallies to extreme 
weather events, Federal Executive Boards have consistently been 
there to meet the information needs of our member agencies.
    Most recently on January 31, 2007, Boston made national 
headlines when a marketing scheme went wrong. Thirty-eight 
electronic devices resembling Lite-Brite toys were placed in 
public locations to promote a movie. The suspicious devices 
sent public safety officials scrambling for many hours. Once 
again, agency leaders called upon the Federal Executive Board 
to provide accurate, up-to-date, and consistent information as 
the situation unfolded.
    I believe that this information sharing and communication 
role will be increasingly important during a pandemic, 
particularly given the likelihood of its extended timeframe and 
anticipated widespread national impact.
    Federal Executive Boards continue to be effective in this 
regard while overcoming recurring challenges. Many were 
captured in the May 2007 GAO report and are currently being 
addressed. The first step was the development of a business 
plan which includes two lines of business. These have, in 
short, helped Federal Executive Boards gain the attention of 
policymakers and increased credibility in our communities.
    Thank you, Mr. Chairman, for this opportunity and I look 
forward to your questions.
    Senator Akaka. Thank you. Thank you very much, Ms. 
Ainsworth. Mr. Goin, please proceed with your statement.

  TESTIMONY OF MICHAEL GOIN,\1\ EXECUTIVE DIRECTOR, CLEVELAND 
                    FEDERAL EXECUTIVE BOARD

    Mr. Goin. Good morning, Chairman. And thank you for the 
opportunity to appear before you today to discuss the role of 
Federal Executive Boards in pandemic preparedness.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goin with attachments appears in 
the Appendix on page 142.
---------------------------------------------------------------------------
    Again, my name is Michael Goin and I am an employee of 
NASA. Currently, I serve as the Executive Director of the 
Cleveland Federal Executive Board, a position I have held since 
2004.
    Like my counterparts, I see my responsibilities as that of 
ensuring the organization and delivery of programs and projects 
to support the two distinct lines of business, all while 
promoting communications, cooperation, and collaborations 
across agency lines.
    FEBs have attributed to the emergency response capability 
of the Federal community, as many reports have stated. My 
comments today will focus on the Cleveland FEB and what it has 
done in the areas of emergency preparedness. It is my belief 
that we serve a unique and vital coordinating role for our 
community.
    Our organization covers 94 agencies in more than 17 
counties. However, I should admit that we also include into 
that the Northern half of Ohio, where many of our agencies have 
responsibility. The activities, projects, and programs of the 
Cleveland FEB are coordinated utilizing special committees that 
focus on activities, one of those being emergency preparedness.
    As stated, FEBs are not first responders. However, we feel 
that we enhance the response capability through our lines of 
business, enhancing the readiness of our responders as well as 
our employees.
    Following September 11, 2001, we developed an all hazards 
plan and an emergency contingencies procedures and guidelines 
handbook to assist employees prior to, during, and immediately 
following emergencies or a disruptive event to include a 
pandemic. Through the efforts of the 28 FEBs, we are delivering 
and adopting best practices and setting measurable goals and 
adding credibility to the FEB as a source for emergency 
preparedness and human capital needs.
    Much has been accomplished, but I must say that more needs 
to be done to ensure uniformity across the FEB network. Our FEB 
has been very active in supporting our lines of business, as 
well as developing partnerships with our State and local 
agencies. We partnered with the Cuyahoga County Board of Health 
to conduct a series of pandemic briefings designed to educate 
employees and managers on the plans and procedures that will 
help mitigate the effects of a pandemic outbreak.
    We assisted FEMA with the distribution of emergency 
preparedness cards for all civilian and contract employees in 
our areas. We also enhanced our 24/7 notification system. Our 
member agencies are now part of a national emergency 
notification system, more commonly referred to as USP3. The 
web-based system can issue notifications in multiple formats: 
E-mail, text, text to voice, over 5,000 e-mail and text 
messages, and up to 10,000 outbound calls in a matter of 
minutes. Prior to that, sir, I would say that we were using a 
calling tree that was very inefficient.
    In response to the recent floodings that many Ohio counties 
experienced, we will be adding a National Weather Service alert 
to that warning system. In addition to the notification 
capability, the system also provides members with a daily 
global snapshot of world events. Many of those snapshots 
include information relevant to pandemic concerns.
    In a recent survey of our member agencies regarding their 
challenges associated with the pandemic planning, many 
identified issues related to telework programs. They are 
seeking our assistance in clarifying telework, emergency 
policies, hiring, and leave flexibilities. Much of that will be 
accomplished with the help and assistance of the Office of 
Personnel Management.
    Many agencies point to the need for periodic security and 
emergency preparedness training, credible information on new 
developments, timely updates from reliable sources. I believe 
our close working relationship with FEMA will help us in the 
training needs. However, resource limitations may impact our 
ability to deliver all that is needed and all that is expected.
    As the GAO report stated, there are inconsistencies across 
the FEB network in regards to different staffing levels, 
different funding models, different resources and different 
reporting structures. However, each Federal Executive Board 
faces the same degree of responsibility and the same degree of 
complexity in carrying out their duties. If FEBs are to be 
effective in these areas, our positions will need to be 
properly designated as having an emergency role? It should be 
written down.
    It is also my hope that the final version of the National 
Response Framework will appropriately identify FEBs as having 
that emergency and supporting role.
    In closing, I would like to share with you a comment, made 
by one of our agencies. It states: ``The FEB is the only venue 
for agencies to interact with each other, thereby offering a 
means of communication that would otherwise not exist.''
    Thank you, Mr. Chairman, and I stand ready for your 
questions.
    Senator Akaka. Thank you. Thank you very much to the 
panelists for your statement and your testimony.
    I have a question for all of you. This hearing is to 
discuss whether or not FEBs should have a formal responsibility 
in emergency response planning and implementation. You have 
heard from our first panelists. Do you agree with GAO's 
recommendations? Mr. Morris.
    Mr. Morris. I absolutely agree. I think that will make our 
efforts and our job a lot easier, especially when we network 
with our State and local counterparts, and also some of the 
other Federal agencies because they will know that we really do 
have an official seat at the table.
    Senator Akaka. Ms. Ainsworth.
    Ms. Ainsworth. I, too, agree and I agree with what the 
previous panel said. I think that having it formally in writing 
somewhere provides us with the credibility hat we need. Right 
now there is lots of transition at the highest levels of 
government. The regional directors and the heads of the 
agencies transition sometimes every 2 years. The FEB is not yet 
necessarily part of the transition package. So I think if we 
have something in writing it provides us with the credibility 
that we need.
    Senator Akaka. Mr. Goin.
    Mr. Goin. I would also agree with the panelists regarding 
that and also remind you of the statement that we do believe 
that we are the only entity that is capable of performing that 
in our field. And our agencies have stepped forward and stated 
they will be engaged and they will support the mission of the 
FEB. So I think that is the right thing to do.
    Senator Akaka. Mr. Morris, your FEB has led the way in 
coordinating pandemic training programs and exercises. I would 
like to commend you for your efforts.
    Mr. Morris. Thank you, Mr. Chairman.
    Senator Akaka. Aside from the issue of funding, what has 
been the greatest challenge in integrating the FEB in the 
emergency response planning?
    Mr. Morris. The greatest challenge is really being able to 
formulate those relationships, especially those critical 
relationships with State and local government. Because for 
field Federal agencies, we are really dependent upon them 
because they are our first responders in any major disaster, 
whether it be a biological disaster with a pandemic or a 
weather-related--which Minnesota is rather famous for--or also 
a terrorist related event.
    Obviously, if we had some additional resources, additional 
staffing even, that would be a greater help. But in light of 
that, having the authority of being in the Federal response 
plan would be a big help.
    Senator Akaka. Thank you.
    This one is for the panel. Funding for FEBs has been a 
large topic of the conversation today. How do you generate 
revenues and establish an operating budget, if you have one? 
Let me ask Ms. Ainsworth first.
    Ms. Ainsworth. In short, we are very entrepreneurial at the 
Federal Executive Boards. In Boston, I am blessed to have a 
wonderful network of agencies who are really there to support 
me. So I know that I can ask for any level of resource, whether 
it be a case of copy paper, something as simple as that, or 
whether it be a person to help me with a particular event, a 
body. I have agencies that are willing to contribute.
    That said, I feel like it is a hat in hand approach where I 
am continually going back to the trough and asking for these 
things and some of that might dry up sooner or later. So a more 
consistent funding stream would be beneficial to me and to 
others.
    Senator Akaka. Mr. Goin, how do you generate revenue?
    Mr. Goin. Very much in the same manner. It is very 
dependent upon our agencies in the collaboration and the 
efforts as agencies step forward as we identify the needs. We 
will tell them what the program is, what the program requires, 
and then ask their assistance in delivering that.
    But I should also state that I am very fortunate to be an 
employee of NASA in our area, who have been very diligent about 
ensuring that we have all of the resources that we need and 
that are necessary for carrying our mission forward.
    Senator Akaka. Mr. Morris.
    Mr. Morris. I am one of the fortunate ones. I happen to be 
a Washington employee of the Department of the Interior in the 
Office of the Secretary. They fund two positions in Minnesota 
very adequately and a modest budget for our office expenses and 
regular needs.
    However, we have some great local support, too, especially 
from the Transportation Security Administration. They do a lot 
of heavy lifting for us when we need some--the National Weather 
Service and a number of different agencies--and really, the 
whole Federal community at large will support us if we ask.
    But again, our base funding is a fairly stable thing. And I 
am the exception, rather than the rule.
    Senator Akaka. Since you have experience in this system, 
let me ask the panel again, outside of the direct appropriated 
funds is there a logical funding source that could support your 
efforts? Mr. Morris.
    Mr. Morris. I think some of the issues that OPM is working 
on in developing a national funding strategy at the chief human 
capital officers level really deserves a lot of merit and 
really would enable many Federal Executive Boards to really do 
a lot more than be concerned about whether or not they are 
going to have operating funds for the next 6 months.
    One of the great assets that we have is that stable 
funding. It is one of the primary reasons why we are able to 
perform to such an extent in emergency management because we 
have that base covered.
    But I think what OPM has been doing in working with the 
chief human capital officers, in getting really a consistent 
funding scheme for the whole network, is a solution, an 
important solution.
    Senator Akaka. Mr. Goin.
    Mr. Goin. I think that OPM's approach is appropriate and I 
do believe that the answer is a national model and that way it 
takes a lot of pressure off of the local to step forward in 
that matter. We should be established in a manner where we have 
uniformity across the entire FEB network. Everyone should be 
operating from the same perspective, knowing what resources are 
available at the beginning of each fiscal year and not trying 
to establish it along the way.
    So I think the answer is a national model and OPM is on the 
right track and we will certainly--as FEBs in the field--assist 
them in helping them understand what the local contribution 
would be from that.
    Senator Akaka. Ms. Ainsworth.
    Ms. Ainsworth. I agree with what both of my colleagues have 
said. Over many years I looked at many of the funding models 
and considered how FEBs could operate. I often liken a strategy 
to something like what GSA does with joint use space. A lot of 
us are in GSA buildings and our office space is joint-use space 
and GSA builds it into their rent schemes.
    A similar funding agreement to something like the Federal 
Protective Service has on the national level, where all 
agencies contribute because the Federal Protective Service is 
an agency that impacts everybody.
    So I believe that OPM is on the right track in pursuing the 
national model that they are looking at now.
    Senator Akaka. Thank you.
    Ms. Ainsworth, you mentioned in your testimony that earlier 
this year the marketing scheme for a cartoon show created havoc 
in the Boston area and agencies looked to the FEB to collect 
and disseminate information. Being able to communicate is, of 
course, essential in the event of an emergency.
    What communications exercising have you done to be sure 
that you will be able to communicate with the necessary people 
in the event of an emergency?
    Ms. Ainsworth. Mr. Chairman, it changes every day with 
technology. In that particular case, it happened to be during 
the day, in the daylight hours. So we were able to utilize our 
e-mail schemes and get people when they were at their desks and 
they have blackberries and whatnot. So we, in that particular 
case, did focus primarily on electronic communications.
    We do have now, we are part of the USP3 network, where we 
will be able to use telecommunication systems which will be a 
voice message and also text messaging to complement the e-mail. 
So there will be three ways that we can communicate 24 hours a 
day with our members.
    Senator Akaka. If you were to look at highlights, what 
strengths and weaknesses have these exercises highlighted?
    Ms. Ainsworth. I think our strengths are our ability to 
quickly get information and, as you heard me say several times, 
accurate, consistent, and up to date information out there. I 
talked a little bit about our experiences with perceived 
emergencies. And a lot of perceived emergencies are generated 
due to blogs and people getting online and talking about things 
or media picking up on a story and just sensationalizing a lot 
of it.
    So our ability to be able to, for lack of a better word, 
fact check some of the information that is surfacing in these 
forums has really provided us with credibility.
    We find that we are a greater resource to the non-law-
enforcement and military agencies, the agencies that I call the 
administrative types, Social Security, IRS. We all work in the 
same buildings and rumor spreads very quickly, particularly 
when folks are on the Internet or watching television during 
the day.
    Senator Akaka. Mr. Morris, next year the Republican 
National Committee will hold its national convention in the 
Twin Cities. This could create a range of challenges in the 
event of a pandemic outbreak or other emergency. What role are 
you playing in preparing for this large national event? Are you 
working with the Boston and New York FEBs, which hosted 
national party conventions in the year 2004? What are you doing 
here?
    Mr. Morris. Last winter we asked for both Boston and New 
York's after action reports from both the DNC and the RNC 
conventions in their respective cities. And then, in the early 
spring we had the U.S. Secret Service Special Agent in Charge 
come into our executive committee and give a briefing for all 
of us on all of the aspects on the National Special Security 
Event.
    For this fiscal year we also had him come on our executive 
committee. We have also been working with both local and State 
government. Again, in Minnesota, we really know everybody on a 
first name basis, all of the major players in law enforcement 
and emergency management. And we are anticipating in the spring 
and probably early summer putting on a major, probably a 
daylong seminar on the ramifications of the Republican National 
Convention from September 1-4, 2008.
    Senator Akaka. Ms. Ainsworth, GAO recommends that 
performance standards be established for FEBs. Would this be a 
helpful tool or a hindrance to your preparedness work?
    Ms. Ainsworth. I personally applaud it. I think it is a 
great mechanism and I think they should exist. I think it will 
help us a lot.
    Senator Akaka. Mr. Goin.
    Mr. Goin. I believe it will give us a clear direction and 
something to work towards throughout the year. We can set our 
strategic position to go in that direction to ensure we are 
meeting those.
    Senator Akaka. Mr. Morris.
    Mr. Morris. I agree with my colleagues on that point.
    Senator Akaka. I want to thank all of our witnesses for 
your thoughtful testimony and answers to the questions. There 
is clearly a lot more that needs to be done to prepare for a 
pandemic outbreak, and including FEBs in that planning.
    In addition, we need to look beyond the Federal emergency 
response professionals and look to the preparation of the 
larger Federal employee population.
    Senator Voinovich and I have asked the Government 
Accountability Office to examine how well prepared the Federal 
workforce is in the event of a pandemic influenza outbreak and 
I am sure we will hold a hearing when that report is released. 
And so we look forward to continuing to hear from you and to 
improve the system so that we can deal and respond whenever it 
is necessary.
    With that, again, I want to thank all of you for being 
here.
    This hearing is adjourned.
    [Whereupon, 11:23 a.m., the Subcommittee was adjourned.]


          PREPARING THE NATIONAL CAPITAL REGION FOR A PANDEMIC

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

                                 U.S. Senate,      
            Subcommittee on Oversight of Government        
                    Management, the Federal Workforce      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

              OPENING STATEMENT OF CHAIRMAN AKAKA

    Senator Akaka. This hearing will come to order. Good 
morning and welcome to our panel and to all of you in this 
room.
    I would like to thank all of you for joining us at this 
hearing to discuss the status of pandemic preparedness in the 
National Capital Region (NCR). This is the second in a series 
of three hearings that our Subcommittee is holding related to 
pandemic influenza. Last week, we heard about the role of the 
Federal Executive Boards in responding to an outbreak, and on 
Thursday afternoon, we will discuss global surveillance of 
emerging infectious disease.
    Public health experts believe that the world is overdue for 
a pandemic influenza outbreak. The Spanish flu pandemic of 1918 
and 1919 killed approximately 40 million people around the 
world. Beyond this tremendous death rate, an estimated 20 to 40 
percent of the population fell ill. The Centers for Disease 
Control and Prevention estimate that a flu pandemic could kill 
between 2 to 7.4 million people worldwide. In the United 
States, an estimated 200,000 people could die and another 2 
million people could become ill. In short, we must prepare our 
communities to protect lives.
    The effect of pandemic in our Nation's Capital, the heart 
of the Federal Government, would be dramatic. Comprised of 11 
local jurisdictions, the District of Columbia, and parts of 
Maryland and Virginia, the NCR is home to over 5 million 
people, 340,000 Federal employees, 40 colleges and 
universities, and 27 hospitals. The NCR has the second-largest 
rail system in the country and hosts nearly 20 million tourists 
each year.
    To help coordinate planning and response with the State, 
local, and regional authorities in the NCR, Congress 
established the Office of National Capital Region Coordination 
in the Homeland Security Act of 2002. In the past 5 years, we 
have spent millions of dollars through DHS and HHS grants to 
prepare the NCR for natural disasters, public health 
emergencies, pandemics, and potential terrorist attack.
    According to the World Health Organization, since 1997, 328 
people from South East Asia to Africa and Europe have been 
killed as a result of the bird flu or the H5N1 virus strain. In 
response to the growing threat, the CDC and HHS have granted 
Maryland, Virginia, and the District of Columbia a total of 
nearly $90 million in fiscal years 2006 and 2007 for pandemic 
preparedness. Congress has appropriated more than $7.5 billion 
since 2004 for pandemic flu-related activities, including $6.1 
billion to HHS in fiscal year 2006 to work with the States on 
stockpiling antiviral drugs and vaccines.
    In 2005, the CDC required all States to develop strategic 
plans for pandemic influenza, and in 2006, the CDC required the 
States to exercise them. In May 2006, the White House released 
a National Strategy for Pandemic Influenza. In addition, the 
local jurisdictions and NCR have their own strategic plans for 
pandemic influenza. However, while the NCR as a whole has a 
strategic plan for security in the event of a terrorist attack 
or a disaster, there is no regional strategic plan specifically 
for pandemic influenza. I think this will be a useful tool to 
develop, and so this hearing is part of planning for that.
    Strategic plans are just the first step. These plans must 
be tested through repeated training and exercising. Weaknesses 
can be found and improvements can be made. This is the only way 
that the National Capital Region can become adequately prepared 
to face the pressing issue of a pandemic influenza outbreak. I 
am pleased to hear that DC will host an exercise with 
nonprofits on pandemic preparedness later this month.
    Like the NCR, my home State of Hawaii faces unique 
challenges in pandemic flu preparation with its large tourist 
population and location between Asia and the contiguous States. 
The Hawaii Department of Health has been working hard to 
address pandemic preparedness, and earlier this year Hawaii 
held a massive exercise simulating a plane crash of a flight 
from Indonesia heading to Mexico City. The exercise scenario 
included passengers infected with avian influenza. It required 
Federal, State, local, and military responders to treat 
injuries related to the crash and possible exposure to avian 
flu. Participants walked away from the exercise understanding 
the importance of interoperable communication and the need for 
medical surge capacity.
    In our Subcommittee hearings last year, we discussed the 
importance of interoperable communication in the NCR and the 
challenges to achieve interoperability with so many 
jurisdictions in the region. I believe you all have made great 
strides in this area and I want to congratulate you on these 
efforts, but there are other problems that need to be 
addressed.
    Pandemic flu will be a shock to the entire medical system. 
Most hospitals function at capacity and leave little room for 
surge. Twenty-five percent of the population could be infected 
by the pandemic strain over a period of months or even years. 
Patients' needs could far outstrip available hospital beds, 
health professionals, and ventilators, and I understand that 
DC, Maryland, and Virginia have made improvements for medical 
surge capacity, but more needs to be done to look at alternate 
sites for care and altered standards of care during a pandemic 
emergency.
    Medical surge capacity is only one of the challenges 
related to treatment and public health response. Keeping our 
government's services running and caring for other sick 
patients are also distinct challenges in the event of a 
pandemic disease outbreak. I know that you all have put a lot 
of thought and energy into developing plans and working 
together to prepare for a pandemic. I am interested in hearing 
about the good work that I know is being done by the various 
jurisdictions in the region, how HHS and DHS are helping in 
that process, and areas where efforts can be improved.
    I want to welcome our panel this morning and introduce Dr. 
Kevin Yeskey, Director of the Office of Preparedness and 
Emergency Operations and the Deputy Assistant Secretary in the 
Office of Preparedness and Response at the Department of Health 
and Human Services.
    We have Christopher Geldart, Director of the Office of 
National Capital Region Coordination at the Department of 
Homeland Security.
    We have Robert Mauskapf, Director of Emergency Operations, 
Logistics, and Planning in Emergency Preparedness and Response 
for the Virginia Department of Health.
    And we have Darrell Darnell, Director of the Homeland 
Security and Emergency Management Agency for the District of 
Columbia and a Member of the Senior Policy Group in the 
National Capital Region.
    I would like to note at this time that we also invited a 
representative from the State of Maryland to participate in the 
panel discussion this morning, but they were unable to provide 
a witness. I do, however, look forward to viewing their 
testimony to find out what their efforts have been on behalf of 
preparing the National Capital Region for pandemic influenza.
    Our Subcommittee rules require that all witnesses testify 
under oath. Therefore, I ask all of our witnesses to please 
stand and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Dr. Yeskey. I do.
    Mr. Geldart. I do.
    Mr. Mauskapf. I do.
    Mr. Darnell. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative
    All witnesses will have 5 minutes to summarize their 
testimony, and without objection, your full written statements 
will be included in the record.
    So we will begin with Dr. Yeskey. Dr. Yeskey, will you 
please proceed with your statement?

TESTIMONY OF KEVIN YESKEY, M.D.,\1\ DEPUTY ASSISTANT SECRETARY, 
AND DIRECTOR, OFFICE OF PREPAREDNESS AND EMERGENCY OPERATIONS, 
    OFFICE OF THE ASSISTANT SECRETARY FOR PREPAREDNESS AND 
     RESPONSE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Yeskey. Good morning, Chairman Akaka. Thank you for the 
opportunity to present the progress HHS has made in 
preparedness for pandemic influenza in the National Capital 
Region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Yeskey appears in the Appendix on 
page 150.
---------------------------------------------------------------------------
    The ASPR mission is to lead the Nation in preventing, 
preparing for, and responding to the adverse health effects of 
public health emergencies and disasters and the vision we have 
is a Nation prepared. Like our response counterparts in other 
agencies, ASPR has taken an all-hazards approach to public 
health preparedness planning. The gains we make in increased 
preparedness and response capability for pandemic influenza 
will help us in preparing for other emergencies and disasters.
    My oral testimony will focus on the Federal preparations 
for the National Capital Region and how HHS is supporting 
Maryland, Virginia, and the District of Columbia in their 
pandemic influenza preparations.
    In November 2005, the President released the National 
Strategy for Pandemic Influenza, followed by a detailed 
implementation plan from the Homeland Security Council in May 
2006. HHS also released its pandemic implementation plan and 
developed an operational plan, or as we call it, the ``Pandemic 
Influenza Playbook,'' which details how HHS will coordinate the 
deployment and utilization of Federal medical resources. Our 
goal for the next year is to work with States to develop 
regional playbooks that will continue to promote integrated 
planning across tiers of government.
    HHS also published multiple documents to assist State and 
local public health officials in their preparations for 
pandemic influenza. Two documents of note are the ``Interim 
Pre-Pandemic Planning Guidance: Community Strategy for Pandemic 
Influenza Mitigation in the United States.'' This publication 
provides detailed strategies for the use of non-pharmaceutical 
interventions, such as social distancing.
    The second publication, called the ``Community Planning 
Guide on Mass Medical Care with Scarce Resources,'' provides 
guidance to health care professionals, permitting them to 
provide the highest possible standards of care in situations 
where resources are scarce. Included in this guide is a 
pandemic influenza case study.
    HHS recognizes the lead role of the Department of Homeland 
Security during disasters of national scale. We support DHS by 
providing public health and medical expertise in all disasters 
and will do so in a pandemic. With regard to pandemic 
influenza, HHS has identified six senior health officials to 
support the DHS pre-designated pandemic principal Federal 
officials. Our six senior health officials have been working 
hand-in-hand with the DHS PFOs at the regional, State, and 
local levels and have participated in exercises, roundtable 
discussions, and other preparedness activities.
    HHS has provided preparedness funding to States and local 
governments through two mechanisms, cooperative agreements and 
emergency supplemental funding. HHS has two cooperative 
agreements that aid in all-hazards preparedness, including 
pandemic influenza. The Hospital Preparedness Program is 
managed by ASPR and provides funds to States for surge 
capacity, development of alternative care facilities for health 
care during disasters, regional coordination among hospitals, 
and exercises. The Public Health Emergency Preparedness 
Cooperative Agreement managed by CDC funds public health 
activities such as surveillance, lab support, and exercises.
    This year, $25 million was made available for a competitive 
award program that addressed surge capacity in hospital 
emergency care. Five health care facilities were awarded $5 
million each under this program and one of the awardees was the 
Washington Hospital Center here in the District of Columbia.
    Emergency supplemental funding has been designated 
specifically for pandemic influenza. By the end of this year, 
the Department will have awarded over $600 million in emergency 
supplemental funding through the CDC and ASPR to States, the 
District of Columbia, and other jurisdictions to upgrade State 
and local capacity with regards to pandemic preparedness.
    The funding has occurred in three general phases. Phase one 
was used to assess gaps in pandemic planning and guide 
preparedness investments. Additionally, each State conducted 
summits between senior HHS officials and State officials and 
these summits were intended to facilitate community-wide 
planning and to promote shared responsibility for pandemic 
preparedness.
    Phase two funds were used to develop an operational work 
plan to address identified gaps from phase one and to develop 
an antiviral drug distribution plan. Awardees also developed a 
pandemic exercise schedule.
    Phase three funds will be used to address any outstanding 
gaps identified in phases one and two, such as stockpiling of 
ventilators, personal protective equipment, alternate care 
sites, mass fatality planning, and medical surge exercises, and 
these will be awarded as supplements to jurisdictions that 
currently receive awards through HHS cooperative agreements.
    Also in 2007, ASPR placed a Regional Emergency Coordinator 
within the DHS Office of National Capital Regional Coordination 
to enhance the HHS contribution to this very important office. 
It is our objective to provide a full-time resource to the 
director of this office who can provide public health 
expertise, enhanced coordination and preparedness planning, and 
improved communications between the director and HHS.
    The responsibility for pandemic preparedness is shared at 
the local, State, and Federal levels and includes private as 
well as public partners. HHS has provided funding and guidance 
to our State partners and we have actively engaged in workshops 
and exercises with our State and local partners to advance 
pandemic preparations. In the NCR, we have enhanced our 
partnership with the Office of National Capital Region 
Coordination by providing a full-time Emergency Coordinator to 
assist with public health and medical preparedness.
    Thank you for the opportunity to present progress HHS has 
made in preparedness for pandemic influenza. With your 
leadership and support, we have made substantial progress. The 
threat remains real. We have much left to do to ensure that we 
meet our mission of a Nation prepared for a potential influenza 
pandemic.
    This concludes my testimony and I will be happy to answer 
any questions. Thank you.
    Senator Akaka. Thank you very much, Dr. Yeskey. Now we will 
hear from Mr. Geldart.

   TESTIMONY OF CHRISTOPHER T. GELDART, DIRECTOR, OFFICE OF 
   NATIONAL CAPITAL REGION COORDINATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Geldart. Thank you, sir. Good morning, Chairman Akaka.
    Senator Akaka. Good morning.
    Mr. Geldart. Thank you for the opportunity to appear before 
the Subcommittee today to discuss the role of the Office of 
National Capital Region Coordination within the Department of 
Homeland Security's Federal Emergency Management Agency.
    I will describe how we work with our Homeland Security 
partners to enhance preparedness within the National Capital 
Region, and more specifically, our role in ongoing pandemic 
influenza initiatives as part of our core mission in the 
region.
    The Chairman gave a very accurate summary of the National 
Capital Region, of what is at stake here in this region and 
also of the office that was created to help address that from 
the Federal perspective. The major role of the office is to 
oversee and coordinate Federal programs for and relationships 
with State, local, and regional authorities. The office 
originally was within the Office of the Secretary at DHS. 
However, with the passage of the Post-Katrina Emergency 
Management Reform Act of 2006, the Office of National Capital 
Region Coordination became a component of FEMA. We directly 
report to the FEMA Administrator.
    The office coordinates daily with local, State, regional, 
Federal, private sector, and nonprofit entities. Some of those 
entities include the Joint Federal Committee, the Metropolitan 
Washington Council of Governments, Regional Emergency 
Preparedness Council, the National Capital Region Senior Policy 
Group, and FEMA Region III.
    Since joining the office 5 months ago and looking at the 
overarching priorities of the office, three major areas came to 
the top. The first one is to enhance regionally coordinated 
catastrophic planning. We helped to initiate and we participate 
on the NCR Evacuation and Sheltering Plan Working Group led by 
the District of Columbia's Homeland Security Emergency 
Management Agency. We work with our partners at all levels of 
government in the region to coordinate activities of this 
Working Group with Federal continuity programs. There is an 
opportunity to take a substantial leap in the NCR in 
catastrophic planning as we are now in the Federal Emergency 
Management Agency, and looking at that agency's vision as it 
moves forward.
    Our second area that we looked at is enhanced Federal 
coordination in the NCR. The National Capital Region 
Coordination Office is working on strengthening the Federal 
coordination with our State and local partners. We do this 
through our Joint Federal Committee. We do this through the 
several regional emergency support functions, which I am sure 
my colleague, Darrell Darnell, will address when he gives his 
testimony. Operationally, the NCRC in its standing Federal 
coordination role ensures the coordination of Federal 
protective measures in advance of and immediately following an 
event.
    The last area that we focus on is the Comprehensive 
Regional Risk Assessments. The region is committed to doing 
Regional Risk Assessments to focus its limited resources on the 
top key issues for the area. We have conducted several and we 
are refining the process. Within these priorities, pandemic flu 
is a major consideration. To meet the challenge of pandemic 
influenza, there are many entities that have a role in 
preparedness in the National Capital Region.
    The Department of Homeland Security's role as described in 
the implementation plan for the National Strategy for Pandemic 
Influenza is to coordinate the overall Federal response during 
an influenza pandemic. The Federal Emergency Management 
Agency's role during a pandemic influenza outbreak is to 
coordinate the identification, mobilization, and deployment of 
Federal resources to support the life-saving and life-
sustaining needs of the States and their populations.
    In March of this year, the Federal Emergency Management 
Agency published a Disaster Assistance Policy establishing the 
types of emergency protective measures eligible for 
reimbursement to States and local governments during a Federal 
response to a pandemic influenza, among other things.
    The role of the National Capital Region Coordination Office 
does not lead efforts to create pandemic influenza contingency 
plans. However, we coordinate and synchronize Federal 
interagency planning efforts with the National Capital Region 
jurisdictions. Our coordination efforts ensure complementary 
multi-jurisdictional planning for preparedness, response, and 
recovery actions in the region.
    A pandemic influenza differs from any other--most other 
events that may happen in this region. It will last much 
longer. It will come in waves. The numbers of health care 
workers and first responders available can be expected to be 
reduced. Resources in many locations will be limited, depending 
on severity and spread of a pandemic influenza.
    Given this, let me tell you how the National Capital Region 
Coordination Office is working towards its three priorities 
with its partners in addressing pandemic influenza.
    The NCRC works in close coordination, as Dr. Yeskey has 
just mentioned, now with an HHS person on board to coordinate 
the activities and the grant streams that HHS has ongoing. We 
also work with HHS and the Department of Homeland Security in 
bringing a public health officer into our office, as well, to 
help coordinate planning between State, Federal, regional, and 
local authorities.
    To enhance our Federal coordination within the region, 
FEMA, the National Continuity Programs disseminated their 
pandemic influenza guidance to more than 70 Federal departments 
and agencies in the NCR. We have coordinated with the General 
Service Administration to use the Federal Virtual Workplace in 
the event of a pandemic influenza, and the U.S. Postal Service 
regarding potential role in distributing prophylaxis. There are 
several exercises that either recently have been conducted or 
that are planned, and I will be glad to cover any of those that 
the Chairman would want me to go over.
    And the last is in our regional risk assessment area. Of 
course, pandemic influenza is a major piece in that.
    In conclusion, I would like to say that the NCRC is at an 
exciting crossroads as it continues its central preparedness 
and coordination missions as part of the Federal Emergency 
Management Agency. Building upon the foundation that has 
already been constructed, the NCRC will continue to take 
proactive steps with our Homeland Security partners to protect, 
prepare for, respond, and recover from the public health threat 
posed by pandemic influenza.
    Thank you, Chairman Akaka and Members of the Subcommittee, 
for the opportunity to discuss the role of FEMA's Office of 
National Capital Region Coordination. I will be glad to answer 
any questions that you have, sir.
    Senator Akaka. Thank you. Thank you very much, Mr. Geldart.
    Now we will hear from Mr. Mauskapf. Please proceed with 
your statement.

    TESTIMONY OF ROBERT P. MAUSKAPF,\1\ DIRECTOR, EMERGENCY 
 OPERATIONS, LOGISTICS, AND PLANNING IN EMERGENCY PREPAREDNESS 
      AND RESPONSE PROGRAM, VIRGINIA DEPARTMENT OF HEALTH

    Mr. Mauskapf. Thank you, Chairman Akaka, for this 
opportunity to address the Subcommittee on this very important 
issue. I am Bob Mauskapf from the Virginia Department of Health 
and I want to discuss the activities in Virginia in combatting 
the potential for a pandemic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mauskapf appears in the Appendix 
on page 166.
---------------------------------------------------------------------------
    Three points that I would like to emphasize are that 
Virginia has undertaken extensive planning efforts for a 
possible pandemic. Additionally, the three jurisdictions within 
the National Capital Region work closely together on all 
aspects of emergency planning and response. And there needs to 
be closer collaboration and communication on NCR emergency 
planning between the three jurisdictions and the Federal 
Government.
    Monthly activity reports from throughout Virginia provide 
the governor anecdotal descriptions of local, regional, and 
State preparations. Pandemic influenza plans are coordinated 
across the NCR at State and local levels. School systems, 
private sector, critical infrastructure partners, all are 
collaborators in this effort.
    One important gap in our planning is the coordination with 
key Federal agencies. NCR jurisdictions must be integrated into 
Federal continuity of operations and continuity of government 
planning. Federal employees live in our neighborhoods and are 
dependent on our services. If there are any preferential 
expectations to assist in the continuity of Federal operations, 
they have not been shared with us.
    Under continuity of operations, governor Kaine has issued 
an Executive Order directing the State and all State agencies 
to create and update continuity of operations plans. Among the 
issues that are addressed in these plans are workforce 
reduction, staffing support coordination, identification of key 
personnel skills, leadership succession, systems readiness, and 
prioritization of agency functions.
    Communications efforts focus on pre-scripted public service 
and public health announcements, keeping the media engaged, 
developing public education opportunities and materials, and 
developing message maps and establishing a public inquiry 
center.
    All treatment planning has been collaborative with the 
health care community and specifically with the Commonwealth's 
90 acute care hospitals. Mass vaccination plans have been 
developed and exercised at both the State and local levels. 
Virginia has focused much effort in the refinement of its 
antiviral distribution plan. Governor Kaine has authorized the 
purchase of over 770,000 courses of antivirals, now on hand 
within the Commonwealth. It is hoped that the Federal Drug 
Administration will approve shelf life extension programs for 
the States, thereby protecting this significant investment and 
extending the longevity of these medications.
    In preparing for a possible pandemic event, the 
Commonwealth will distribute to target populations through a 
regional delivery network, to private sector pharmacies, 
military TRICARE clinics, community health centers, dispensing 
physicians, health care facilities, and local health 
departments. The plan is designed to provide antivirals to 
treat up to 25 percent of the State's population. This 
percentage is based on worst-case modeling from the 1918 
pandemic. Participating pharmacies will receive and dispense 
the medications at no charge. A tracking system will assure 
that each individual receives only one course.
    On the medical surge, approximately 3,600 staff beds are 
available State-wide for the influx of surge patients within 4 
hours of notification. The immediate bed surge capacity within 
this 4 hours for the Virginia portion of the NCR is 780 beds. 
Surge capacity within 24 hours amounts to 5,600 patient surge 
beds among normal staff beds within the Commonwealth.
    Virginia continues to identify additional potential 
alternate care sites to enhance the treatment of patients. 
Additionally, the use of mobile medical assets is a valuable 
option for providing medical stabilization and treatment 
outside of hospitals. Stabilization and treatment-in-place 
units are now in place for four of our six hospital regions. A 
vendor-managed inventory surge plan now under consideration 
proposes to provide medical surge materials from two locations 
to all of our sites within Virginia.
    In August 2006, Virginia hosted a State-wide pandemic 
influenza tabletop exercise and followed it up in October of 
that year with a full functional exercise. All 35 local health 
districts participated and they operated 77 mass vaccination 
clinics and vaccinated over 10,800 citizens with annual flu 
vaccine provided by the State. Last month, Governor Kaine led a 
cabinet-level pandemic flu tabletop exercise. State and 
regional caches of antiviral treatment courses are in place to 
provide treatment to over 37,000 hospital staff. That is 
approximately 30 percent of the Commonwealth's hospital 
employees.
    In summary, Virginia has planned extensively for a possible 
pandemic. Collaboration among Virginia, Maryland, and the 
District is extensive and productive. Increased direct 
involvement of Federal agencies in the planning process is 
required.
    Thank you for this opportunity to address the Subcommittee 
and I will be glad to take your questions.
    Senator Akaka. Thank you very much, Mr. Mauskapf.
    Now, Mr. Darnell, will you please proceed with your 
statement.

   TESTIMONY OF DARRELL L. DARNELL,\1\ DIRECTOR, DISTRICT OF 
   COLUMBIA HOMELAND SECURITY AND EMERGENCY MANAGEMENT AGENCY

    Mr. Darnell. Good morning and thank you, Chairman Akaka, 
for the opportunity to appear today to discuss pandemic 
preparedness in Washington, DC and the National Capital Region 
(NCR).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Darnell appears in the Appendix 
on page 176.
---------------------------------------------------------------------------
    A pandemic is likely to cause both widespread and sustained 
effects and is thus likely to stress the resources of every 
State nearly simultaneously. This anticipated resource drain 
will make it difficult for States to assist each other, thereby 
reinforcing the need to develop a plan that reflects a 
substantial degree of self-reliance.
    The District's response to a pandemic will include 
significant governmental coordination, communication to the 
public, increased medical surge capacity, and first responder 
protection. The District's Pandemic Influenza Preparedness Plan 
provides a framework to prepare for and respond to a pandemic. 
The plan is based upon the pandemic phases determined by the 
Centers for Disease Control and Prevention, in collaboration 
with the World Health Organization. These phases help identify 
the estimated impact of a pandemic on the government, 
residents, and visitors. These defined phases help ensure a 
consistent and coordinated response by the District of Columbia 
Government in the event of a pandemic.
    To facilitate homeland security collaboration at the 
regional level, the NCR leadership established a Health and 
Medical Regional Programmatic Working Group which addresses 
mass vaccination and mass dispensing issues, as well as the 
Surge Subcommittee which addresses mass fatality planning 
throughout the NCR. These groups provide forums for regional 
planning and cooperation related to pandemic preparation, and 
to encourage local coordination, the District has developed 
partnerships with the business community and the city's 
hospitality industry in order to enhance preparation and 
response efforts.
    In addition to forming partnerships, we have worked to be 
certain that before, during, and after an emergency, we are in 
a position to provide timely, accurate, and easily understood 
information and instructions to the public. The District has 
made information about pandemic influenza planning and 
preparedness widely available through websites as well as fact 
sheets and preparedness checklists for the media, schools, 
businesses, and public safety officials.
    And to help ensure the efficacy of our planning and 
training efforts, the District has conducted a number of 
pandemic influenza-related exercises that have focused on 
managing Strategic National Stockpile assets in response to a 
pandemic flu outbreak in schools and the hospitality industry. 
Further, on October 17, we will participate in an exercise with 
nonprofit organizations to test their continuity of operations 
plans using a pandemic flu scenario. These exercises have 
familiarized District personnel and the public with pandemic 
response plans and they have demonstrated the ability of DC 
agencies to coordinate the response effectively.
    But, of course, a crucial aspect of pandemic response is 
early identification. District hospitals report diagnosed cases 
of influenza on a daily basis, which are compiled and compared 
against normal seasonal patterns. This monitoring will reveal 
an unusual or sudden spike in flu-like symptoms being reported 
at multiple hospitals and will notify public health officials 
of it early on.
    Turning to medical surge capacity, in the event of a 
pandemic influenza outbreak, the number of patients seeking 
treatment at hospitals in the region would soar. The District 
and the NCR have invested in increasing hospital surge capacity 
in previous years to expand hospitals' ability to accept a 
larger than normal volume of payments. Throughout the NCR, the 
number of additional surge beds that were created was 2,367, 
and approximately one-third of those are located in hospitals 
here in the District of Columbia.
    In order to effectively treat the large number of affected 
individuals who will need medical treatment during a flu 
outbreak, it is critical that hospitals, public health, and 
emergency medical service providers have adequate protection so 
that they themselves do not become infected. The District of 
Columbia and the NCR have purchased protective equipment for 
health personnel in order to maintain their safety while 
treating the public during a pandemic.
    In conclusion, the District is continually preparing for 
response to a pandemic through the following activities: 
Identifying public and private sector partners needed for 
effective planning and response; planning for key components of 
pandemic influenza preparedness, including surveillance, 
vaccine, and antiviral distribution and communications; 
integrating pandemic influenza planning with other activities 
conducted under the Centers for Disease Control and Protection 
and the Health Resources Services Administration's Bioterrorism 
Preparedness Cooperative Agreements with the States; 
coordinating local plans and providing resources to assist in 
the planning process; exercising our plans; and continually 
coordinating with adjoining jurisdictions.
    Thank you again for the opportunity to testify before you 
today, and I welcome any questions you may have.
    Senator Akaka. Thank you very much, Mr. Darnell.
    Dr. Yeskey, according to CDC, among the three flu strains 
it is preparing for in the 2007 and 2008 season, one of them is 
a type AH3N2. This strain is linked to the 1968 Hong Kong 
pandemic flu, the deadliest flu in the past 30 years, which 
killed two million people worldwide. What is the outlook for 
this upcoming flu season and are we prepared for this type of 
influenza?
    Dr. Yeskey. I would say that the preparedness activities 
that we are undergoing for pandemic influenza put us in a 
position to be able to respond better to any influenza, 
seasonal influenza that we might see this year. I can't comment 
specifically on the vaccines associated with that. I just don't 
have that material available. I would be happy to provide that 
answer to you. But I think because we have preparations in 
place for pandemic influenza, we have done some exercises, we 
have done planning, we have done a number of different 
activities related to pandemic influenza, this puts us in a 
better position to respond to seasonal influenza, as well.
    Senator Akaka. You just mentioned that there has been an 
improvement in preparedness. Can you mention something about 
just one part of the preparedness that you have been working 
on?
    Dr. Yeskey. Sure. I think a number of things. One, with 
regards to our exercises that we have done, a number of States 
have used seasonal flu clinics as a model for pandemic 
influenza mass vaccination, so we have looked at that, so that 
is an area where State and local authorities have practiced 
their seasonal influenza clinics and gaining efficiencies in 
those areas. In fact, Admiral Vanderwagen, the Assistant 
Secretary in our office participated in a drive-through 
seasonal flu vaccination clinic in his home county in Maryland 
last year.
    We have exercised distribution plans for antivirals. We 
have hospitals that have looked at surge capacity and how to 
enhance their ability to respond to a peak in influenza 
patients. So I think those are areas where we have seen 
improvements in our preparedness for pandemic influenza that 
should carry over into seasonal influenza.
    Senator Akaka. Mr. Darnell, the first human-to-human 
transfer of H5N1 Avian influenza occurred in Indonesia last 
year and this is alarming. The first question everyone has in 
mind is, if NCR were hit with a pandemic influenza this season, 
are we ready?
    Mr. Darnell. Well, Mr. Chairman, I think we have taken all 
the steps that we possibly can to be ready. We have developed 
plans. We have exercised those plans. We have coordinated those 
plans with our partners within the NCR as well as with the 
Federal Government. We have also reached out to the hospitality 
industry, as well, because a major part of our economy is 
tourism. A number of people come through this area, and if I 
understand your question, the gist of it, it could spread 
really rapidly.
    In fact, we recently held an exercise this past September 
10 with the hotel and hospital industry in the NCR about an 
airborne disease that could affect people who were attending a 
convention here and who then traveled up and down the Eastern 
Seaboard. So we have stockpiled antivirals that we would need 
here and we also have the surveillance tracking system, and 
then working with the hospitality industry and their folks, as 
well, on how we could track people who are here for 
conventions, who are here visiting the Nation's Capital, and 
then follow up with those people in the event that they were 
infected or potentially could become infected.
    Senator Akaka. Mr. Mauskapf.
    Mr. Mauskapf. I believe we are ready. With the stockpiling 
of over 770,000 courses of antivirals already on hand, the 
enlisting of over 600 pharmacies to aid us in dispensing, the 
development of a distribution network with private distributors 
backed by UPS and our State resources, exercising both mass 
vaccinations once vaccine becomes available every year for the 
past 3 years, exercising points of dispensing at the drive-
through clinics and other asymmetric types of forms of 
dispensing, with the governor's executive-level decisionmaking 
exercise that he conducted with his entire cabinet earlier last 
month, and with our participation regionally in the upcoming 
National Governors Association Region 3 exercise, which will go 
on November 8 and 9 here in the National Capital Region, I 
believe that we have made great strides toward preparedness.
    Senator Akaka. Thank you. Mr. Geldart, along the lines of 
strategic planning for such an event, I know that it took all 
the jurisdictions working together with ONCR a number of years 
to develop the NCR security strategic plan. The regions have 
individual strategic plans for pandemic influenza, but it seems 
like a cohesive plan for the NCR would be a useful tool. Has 
this come up in your meetings within the NCR and could you work 
as a facilitator to develop such a plan?
    Mr. Geldart. Mr. Chairman, I would say that we do have a 
National Capital Region strategic plan. Within that strategic 
plan, we have a focus area that covers many of the aspects, if 
not all of the aspects, that go into mass care, medical surge, 
mass prophylaxis areas, which are the key pieces that go into a 
pandemic influenza plan.
    To create a regional plan for pandemic influenza would 
definitely be a discussion that myself, Mr. Darnell, and the 
other folks that make up the Senior Policy Group in the 
National Capital Region would have to discuss to ensure that 
each State and entity that would take part in that would find 
usefulness in creating a regional plan, or is there a way that 
with the exercises that we do and the strategic plan that we 
have for the region, do they believe--do we all believe that 
covers us, how we need to for pandemic influenza planning. If 
they were willing, sir, I would be willing to facilitate, yes, 
sir.
    Senator Akaka. Thank you. We look upon you and the 
Department of Homeland Security to be a kind of facilitator to 
bring these groups together.
    Doctors and pharmacists across the country are already 
offering flu shots. With the flu season upon us, there is a 
real opportunity for the NCR to test strategic plans that you 
all have been working on. What exercises are scheduled for NCR 
to use this flu season to test current plans for a pandemic flu 
outbreak? Mr. Mauskapf.
    Mr. Mauskapf. Our mass vaccination with using annual flu 
vaccine was so successful last year that we have purchased an 
additional 12,000 doses of annual flu vaccine and have actually 
taken delivery of pre-loaded syringes and needles, and we have 
provided that to 19 of our 35 health districts, and they will 
be conducting mass vaccination exercises during October and 
November.
    Some of the settings, for example, within the National 
Capital Region, in Loudoun County, we will actually be in a 
high school and do mass vaccinations during a class session, 
one hour, and we will test and use performance metrics to 
determine how long it takes to put each individual through the 
line to receive a vaccination. We will repeat this in several 
other areas.
    Some of the themes, for example, on Veterans' Day in our 
Southwest Region, we will be giving flu vaccine to veterans. We 
have other thematic types of exercises that will be going on, 
as I said, 19 in all, and we will be taking complete advantage 
of the annual flu season being here for mass vaccination.
    Senator Akaka. Thank you. Mr. Darnell.
    Mr. Darnell. In addition to the October 17 exercise that we 
will be participating in with the nonprofits where we test 
their continuity of operation planning, we will also be 
participating in the Region 3 exercise that Mr. Mauskapf 
mentioned, as well, I believe on November 8 and 9. And then we 
are also going to be opening up two sites that we will use as 
sort of a test of how we would offer vaccines to the larger 
public and we will be vaccinating our Department of Health, our 
Metropolitan Police Department, and our Fire Department as a 
test for that.
    Senator Akaka. Thank you. HHS and DHS are the Federal 
leaders in pandemic emergency response. But a recent GAO report 
found that their respective roles haven't been clarified. Have 
HHS and DHS communicated to the 14 jurisdictions of NCR the 
roles and the responsibilities of each agency? Dr. Yeskey.
    Dr. Yeskey. We at HHS support the role of DHS as the lead 
in the overall response to any event in disasters, any 
disaster, including pandemic influenza, and we have established 
our senior health official structure to mirror what DHS has set 
up in establishing principal Federal officials for pandemic 
influenza. We have that structure set up and our senior health 
officials, along with the DHS principal Federal officials, have 
been going out, meeting with State officials, meeting with 
local officials, and, among other things, talking about the 
structure and how we provide support with the public health and 
medical expertise to the overall structure of DHS. So we have 
communicated the message to our State and local counterparts of 
how we will structure our HHS support to DHS, in their capacity 
as overall lead in the event.
    Senator Akaka. Mr. Geldart.
    Mr. Geldart. Yes, sir. I think building off of what Dr. 
Yeskey just commented on, the fact that DHS being the 
responsible party for response in a pandemic influenza and 
developing the plans, overarching planning, strategic planning 
framework for that. I think that has been communicated. I think 
it is very clear that the Department of Health and Human 
Services has a large role in developing the processes and 
procedures that are most important and that most people need to 
know from the health perspective. In that, the Federal 
departments are receiving guidance from the Department of 
Health and Human Services on what they do for their employees, 
their critical mission assignments, and how they protect those 
folks for continuity within each Federal entity.
    So I think in that respect it is very clear for folks, and 
on top of that, looking at the NCR in particular right here, 
bringing in that person directly working for Dr. Yeskey into 
the Office of National Capital Region Coordination and 
embedding that person in all of the regional emergency support 
function meetings, the planning meetings, the development 
meetings that the region does, and having that direct 
continuity link from local jurisdictions, State jurisdiction, 
to the Federal folks, to HHS is a huge help for my office, I 
know, in coordinating between the Federal side and the State 
and local side, as well as for the State and locals to have 
somebody to turn to directly for answers for that.
    Senator Akaka. Dr. Yeskey, public health professionals all 
cite the need for alternative standards of care during pandemic 
outbreaks. Can you explain to us what would happen for those 
requiring medical care for non-pandemic flu reasons during an 
outbreak?
    Dr. Yeskey. Part of the public health and medical strategy 
is to, first, if you look at the epidemic curve of how a 
pandemic would look, part of our strategy is to reduce that 
overall impact, kind of drop the peak of that curve down a 
little bit so we don't have as many patients and reduce the 
overall load on hospitals. The second part is to disrupt 
transmission so we don't get an immediate burden on our 
hospitals but we spread that out over time as the pandemic 
moves through the country. So the intent is to reduce the 
overall number of patients who seek hospital care and to spread 
the burden out over a period of time so hospitals aren't as 
overburdened so they can work on taking care of the non-
pandemic patients that show up at their hospitals, as well.
    So our plan is really to try and keep those people who 
don't--who are infected with the pandemic virus--keep them out 
of the hospitals as much as possible and only the people who 
really need to be treated in hospitals, get them in there, and 
that enables the hospitals to reduce that surge need and to 
provide staffing for the non-pandemic patients, as well. Plus, 
the development and production of vaccines and the acquisition 
of antivirals, help keep that burden off hospitals.
    We have published a document, as I said earlier, on 
allocation of scarce resources and it walks through the various 
aspects of how health care facilities can determine how they 
are going to allocate those resources when they are faced with 
those situations. So those are several of the strategies that 
we have employed in making sure that we try and meet the surge 
demand that will occur during a pandemic. We recognize that 
this is a tough issue. This is probably one of the tougher 
issues in pandemic flu preparations, is medical surge capacity 
with staff, with equipment and supplies as well as hospital 
services.
    Senator Akaka. In reducing impact and disrupting 
transmission, you would be working with these jurisdictions. 
You mentioned that you would try to keep people out of the 
hospitals as you do this. In case people would need hospital 
care, and knowing that today many of the hospitals around the 
country or in different communities are unable to deal with any 
surge for hospital care, are there any plans to deal with that?
    Dr. Yeskey. Well, I think States and local communities and 
health care systems and hospitals are working on how to provide 
surge capacity. And one of the key components of our hospital 
preparedness program over the past 5 years is providing funding 
to States so they can address surge capacity, they can address 
interoperable communications, hospital incident command, and 
also address some of the equipment and supply needs that 
hospitals might face during a pandemic. So those are the 
strategies employed and then we work with the States and the 
local health care facilities to develop their surge capacity 
planning.
    Senator Akaka. Thank you. Mr. Mauskapf, Dr. Yeskey just 
mentioned medical surge capacity is going to be a huge 
challenge during a pandemic outbreak. According to your 
testimony, Northern Virginia, the most populous part of the 
State, has a short-term surge capacity of 1,100 beds with a 
benchmark of 1,162 beds. However, this shortfall doesn't take 
into account long-term surge requirements. How will Northern 
Virginia address a long-term medical surge?
    Mr. Mauskapf. One of our methodologies obviously is going 
to be reaching out to the rest of the State, and we have plans 
that we can incorporate bed capacity throughout the State. 
Obviously, in a pandemic, if everybody is being affected 
simultaneously, that will be difficult.
    We have developed four stabilization and treatment-in-place 
facilities throughout the State which are triage sites. That 
will enhance our capability. They are canvas facilities. They 
can be deployed quickly and they can be consolidated and used 
together. So those are our mobile resources.
    We have also been identifying alternate care centers and we 
have established 26 Medical Reserve Corps around the 
commonwealth with a very significant number--I think the number 
is in my testimony--of medical professionals that would assist 
in staffing these alternate care sites and mobile care sites 
that I mentioned.
    Additionally, with our exercises, we are prepared to 
request Federal assistance and DOD assistance. Indeed, we have 
Memoranda of Understandings with all of our military bases, and 
there is a significant amount of those that we do cooperative 
training and exercising with on a regular basis. So we go 
through the same process working with the Department of 
Homeland Security for our State Emergency Operations Center 
requesting Federal assistance. So those would be the 
methodologies that we use to enhance our surge capacity.
    Senator Akaka. Mr. Darnell, similarly, with the closing of 
DC General Hospital a few years ago, DC's reduced hospital 
infrastructure raises questions on its ability to meet medical 
surge capacity needs. While DC managed to increase bed capacity 
by 300 beds last year, that doesn't seem to be able to meet the 
potential need during a pandemic. My question to you is what is 
DC doing to address short-term and long-term medical surge 
capacity needs during a pandemic?
    Mr. Darnell. Well, I think the increase in the 300 beds 
that you referred to, Mr. Chairman, really is a normal steady 
State, if you will. We have already identified, as I testified 
earlier, the creation of about 2,300 or so beds in a surge 
capacity that we could bring to bear if we had this type of 
outbreak. Similar to what Mr. Mauskapf had indicated, we also 
have Memoranda of Understanding with our regional partners 
where we can identify available beds if we need to use them. We 
have also purchased medical field units that we can deploy if 
we need to have people hospitalized. We are also working with 
the DC National Guard to provide DOD support in the event that 
we have to do that, as well. And then, finally, we are 
identifying primary care facilities, outpatient primary care 
facilities that we could use as inpatient if we need to do 
that. So those are some of the steps that we are taking, and 
again, as Mr. Mauskapf said, we would also reach out to the 
Federal Government for more Federal assistance if we needed it.
    Senator Akaka. Thank you. Mr. Darnell, as you know, 
children could easily transmit the flu in concentrated places 
such as schools, and I know as a former teacher they can become 
a central source for the disease. In a large outbreak, it might 
be necessary even to close schools. I wonder if you have taken 
this into consideration in your planning in DC. If so, how long 
would the schools be closed and have you begun planning with 
the school departments on alternative ways to provide education 
during a pandemic?
    Mr. Darnell. Yes, we have discussed what our response would 
be, and quite frankly, Mr. Chairman, I couldn't tell you how 
long the schools would be closed. In fact, I think the decision 
to close schools would be one that we would make with great 
care and great caution. My understanding of pandemic influenza 
is that unlike normal, if you will, influenza that is seasonal 
that generally runs from October to February or March, this 
particular strain, the H5N1, has tremendous peaks and valleys 
and there are possible times where it could be extremely high, 
where it could be extremely low, where it could transmit at 
varying rates that, quite frankly, again, as I understand it, 
we can't accurately predict.
    So I think, first of all, we would take great care in 
making a decision to close schools. I would respectfully submit 
that one of the things we have to do is really communicate and 
educate the school system--educators, parents, and kids--in the 
things that they can do to protect themselves and protective 
actions that they can take, signs and symptoms of the disease, 
of the influenza, if they have it, where they can seek 
treatment immediately, as Dr. Yeskey said earlier in his 
response to one of your questions, so that we can sort of clamp 
down on the spread of it so we don't have to make that type of 
decision.
    Senator Akaka. In your March pandemic flu exercise, you 
mentioned that there were gaps in communication with the K 
through 12 schools. I am glad to hear you say that you have 
worked with parents, as well, on this. Were there any other 
ways that you have addressed the communication gaps in schools?
    Mr. Darnell. Yes. One of the things we have done, as I 
testified earlier, we have the websites, we have the checklist, 
the outreach directly to educators and parents and kids, and we 
just recently implemented what we call a Commander Ready 
Program that is a part of a Federal program for K through 12. 
Right now, we are concentrating on K through the age of 13, and 
it is an overall emergency preparedness training curriculum for 
kids that pandemic influenza is just one facet of that process.
    We also have some informational material that we are going 
to be sending out to all of the District residents. Our goal is 
to send this information out to 100,000 households within the 
District of Columbia, again, that not only focuses on pandemic 
influenza, but emergency preparedness in general with that just 
being one facet of emergency preparedness.
    Senator Akaka. Dr. Yeskey, HHS has responsibility for 
overseeing and administering the Strategic National Stockpile 
of antiviral drugs and vaccines. Congress appropriated $6.1 
billion over 3 years for HHS to work with States on building a 
stockpile of Tamiflu, Relenza, and available vaccines. Can you 
give us a status, an update on this?
    Dr. Yeskey. Sure. A couple things about the medical 
countermeasures. We have established several goals that I think 
are in my written testimony, but one is to maintain a pre-
pandemic vaccine for about 20 million people. The second goal 
is to provide pandemic vaccine to all citizens within 6 months 
of pandemic declaration. Our third countermeasure goal is to 
provide influenza antiviral drug stockpiles for treatment of 
pandemic illness for about 25 percent of the population. And 
then the last one is to provide an influenza antiviral drug 
stockpile for strategic limited containment, so called 
``quenching.'' If an isolated case breaks out, we can use that 
treatment to prevent or delay the spread.
    We have a couple of strategies for our countermeasures, the 
medical countermeasures for pandemic influenza. One is the 
advanced development piece of that, and that is to look at 
alternate ways to be less dependent on egg-based vaccination 
cultures, and we are looking at developing cell-based 
production of vaccine that gives us more vaccine production 
capability. We have also looked at antigen-sparing vaccine with 
the use of adjuvants. Adjuvants are materials added to vaccines 
that improve their efficiency, thus requiring a lesser dose for 
the vaccination. That would give us a bit more vaccine in our 
stockpiles. We are also looking at new antivirals. We currently 
have two in our stockpile. We are looking at production of 
other new antivirals.
    We are also looking at Federal Stockpile acquisitions. That 
is the second part of our strategy. As I mentioned, we were 
looking at about 81 million treatment courses for the 
antivirals. Currently, we have about 37.5 million in the 
stockpile, with an appropriations request for another 12.5 
million. States have also been given the responsibility of 
stockpiling about 30 million doses, and I think the last 
numbers that I saw, they have purchased about 15 million 
treatment courses. Money has been made available so States get 
a subsidy on the purchases and they are also able to purchase 
at the Federal price.
    The third piece that we have developed, or the third 
strategy that we have looked at, is infrastructure building, 
trying to look at how we can increase the domestic 
infrastructure for vaccine production. We have invested money 
in the retrofitting of existing vaccine production facilities 
to specifically address some of the new cell-based 
technologies. So that, in a nutshell, is a summary of our 
progress with countermeasures.
    Senator Akaka. Thank you. Dr. Yeskey, CDC has the authority 
from the FDA under the Shelf Life Extension Program to store 
antiviral drugs and vaccines for a longer period of time than 
States or local governments. It must be a tremendous additional 
cost for States to replenish their purchases every few years. 
How do you decide when pandemic-related antiviral drugs and 
vaccines are stored by the State and when they are stored by 
the CDC?
    Dr. Yeskey. A little bit about the Shelf Life Extension 
Program. That is an interagency agreement between the 
Department of Defense and the Food and Drug Administration, and 
the arrangement is that when drugs are stored appropriately--
for the agencies that participate in this--when the drugs 
approach their shelf life termination, the FDA tests them to 
see how potent they remain in that period of time and then will 
grant, if they meet the standards established by CDC--and 
again, this is a superficial explanation of this process--but 
nevertheless, the FDA tests it and then assigns an additional 2 
years or so shelf life extension for products that meet their 
requirements--stored appropriately, maintained appropriately, 
and maintain their potency during testing. The agreement is 
that any material that does not meet those requirements when it 
is tested gets destroyed.
    The process is fee-for-service and currently the VA, Health 
and Human Services--through the Stockpile--and DOD participate 
in this process. So that is the process that occurs, and it is 
all done through the Defense Medical Standardization Board.
    For States to participate in this program would require a 
significant increase in the demand on FDA resources and on the 
Department of Defense to administer this. At the direction of 
the HSC, an interagency panel met to look at whether we could 
offer this program to the States. For the present time, the 
recommendation out of the panel was that they would not be able 
to accommodate States in the Shelf Life Extension Program, but 
they have not absolutely ruled that out, to the best of my 
understanding. So they are going to continue to look at this to 
see if there is a mechanism by which States can participate in 
a Shelf Life Extension Program. But for now, in the DOD-FDA 
Shelf Life Extension Program, they do not.
    Senator Akaka. Thank you. Mr. Mauskapf and Mr. Darnell, you 
have heard Dr. Yeskey mention about stockpile. Can you provide 
us with a stockpile update for Virginia and for DC? Mr. 
Mauskapf.
    Mr. Mauskapf. Virginia has received the highest rating from 
CDC, a green rating, for the last 3 years running. We will have 
our State review later on in October for our fourth year and we 
anticipate a like situation.
    We have developed what I think is a pretty imaginative set 
of partnerships with private sector. A national transportation 
company has undertaken a ground contract for all State agencies 
within the Commonwealth and that includes--the RFP that went 
out included that to get that contract, they must also deliver 
our stockpile, and, in fact, they were signed on to that and 
that is now part of their contract.
    We have a network of five Receive Stage and Store sites 
around the Commonwealth to receive the stockpile. We are 
working with Wal-Mart at their distribution center in 
Harrisonburg as a potential new site. We have identified over 
300 Points of Dispensing (PODs), around the Commonwealth. We 
have enlisted the assistance of 26 Medical Reserve Corps in 
helping to dispense our stockpile. We also have tested in every 
single one of the 35 health districts twice a year either a 
mass vaccination or a mass dispensing exercise.
    Under the Cities' Readiness Initiative in the three regions 
that are CRI areas, the National Capital Region, Metropolitan 
Richmond, and Hampton Roads, we have done asymmetric dispensing 
exercises, which include drive-through exercises, school bus 
delivery of meds, bookmobiles. We are working now with major 
newspapers in the three regions to develop our printed material 
and we have agreements with them to develop the printed 
material that is attendant to dispensing within 20 hours of 
request. So I think we are in pretty good shape for the 
stockpile.
    Senator Akaka. Thank you. Mr. Darnell, will you update us 
on your stockpile for DC?
    Mr. Darnell. Yes, sir. We have about 45,000 treatment 
regimens that we have stockpiled. We have the green rating from 
the CDC, as well, green minus for the receipt and distribution 
of the Strategic National Stockpile, and similar to my 
neighbors in Virginia, we have also exercised how we would 
distribute the stockpile, identified the sites where we would 
do that. As I indicated earlier, we will have a test of that in 
November as we do that with some of our public safety personnel 
on how we would carry that out. And so we continually take a 
look at that. As Chris Geldart indicated earlier, as a part of 
our shelter and evacuation plan of identifying sites and 
distribution shelters and those different types of things, that 
is a part of that process, as well, for the District, let alone 
for what we are doing for the larger NCR.
    Senator Akaka. Thank you. Mr. Darnell and Mr. Mauskapf, as 
I mentioned in my opening statement, there are 20 million 
tourists who visit the NCR every year. There are also 130,000 
students in the region who may not be permanent residents. Are 
you taking non-resident populations into account, Mr. Mauskapf?
    Mr. Mauskapf. Absolutely. We don't ask to see a State-
specific identification card. With our border States, we have 
entered into agreements. If we open our PODs and they are 
closer for some of their citizens, there is no problem for them 
coming across the border. We have done, as recently as last 
October, a joint exercise with the District and with Maryland. 
We have received the stockpile and we have worked together in 
the management of the stockpile and the distribution to the 
PODs throughout the National Capital Region. There is full 
understanding that we will be mutually supporting in the event 
of such a requirement.
    Certainly in Virginia Beach and Williamsburg and areas 
where we have huge populations of visitors during the tourist 
season; all our colleges and universities have been integral to 
our planning and exercising and certainly they are all 
considered and will be part of the distribution and dispensing.
    Senator Akaka. Thank you. Mr. Darnell?
    Mr. Darnell. Yes. I would just echo Mr. Mauskapf's 
comments, as well. The exercises that he referred to, we will 
have participated in that. We all have Memoranda of 
Understanding that we would support each other in the event of 
this type of outbreak.
    With regard to the colleges and universities that are 
located within the District of Columbia, we have what we call a 
College and University Consortium where we meet with them on a 
monthly basis to discuss emergency preparedness issues in 
general, and again, this is one facet of it. So we certainly 
would include students in that equation if they needed to 
receive treatment.
    Again, we have a close working relationship with the DC 
Greater Board of Trade as well as the DC Chamber of Commerce 
and the hotel and hospitality industry, so again, as I stated 
earlier, if there was an outbreak, we would be able to utilize 
their resources to track individuals who come in and out of the 
city and as they leave so that we can contact them in case they 
were infected or had the potential to become infected.
    Senator Akaka. Mr. Mauskapf, according to CDC guidance, the 
States may elect to request assistance from the Postal Service 
to aid in the direct delivery of antiviral medications to 
residences. Would this work for something as big as pandemic 
flu, or have you exercised this or dealt with the Postal 
Service on this?
    Mr. Mauskapf. We have done joint planning with the Postal 
Service in the National Capital Region under the Cities' 
Readiness Initiative Program. It is the most efficient and 
effective means to get medications out to the citizens. The 
issue with delivering through the Postal Service is security. A 
requirement from the Postal Service's unions is that they have 
an armed guard riding along with them if they are, in fact, 
delivering meds.
    During a pandemic or during any major event, you can 
imagine the requirements that are going to be levied upon law 
enforcement entities, so it is difficult to assure the Postal 
Service that we will be able to have an armed guard with each 
one of their mailmen and delivery vehicles. We have looked at 
mobilizing the Guard in the Commonwealth. We have looked at 
mobilizing the Department of Corrections. And we have worked 
with local law enforcement agencies. We agree that is a viable 
methodology. The issue is going to be whether or not we will be 
able to provide the law enforcement to support the union 
requirement.
    Senator Akaka. Mr. Mauskapf, are there plans to provide the 
letter carriers--and you mentioned the guards--but do you have 
plans to provide letter carriers with police protection?
    Mr. Mauskapf. That is what I am saying, that is the issue, 
whether or not there is sufficient law enforcement or Guard or 
Department of Corrections armed guards to provide--the 
requirement is 1,100 when we modeled this. It is a requirement 
for 1,100 for the Virginia portion of the National Capital 
Region to handle all the routes, if they are doing two routes a 
day. They have to cease all mail delivery, do two routes a day 
of nothing but medications. So that is a requirement of 1,100 
personnel that would be able to do that. Given the other 
requirements upon law enforcement at that time, that is going 
to be a tough nut to crack.
    So we are continuing to look at that, and one of the 
initiatives that we have studied is going to the Federal 
Government for the National Capital Region and requesting the 
assistance of Federal law enforcement agencies to support us in 
the event of doing this. That has not been developed any 
further than the idea level right now.
    Senator Akaka. Thank you. The Federal Government is a huge 
partner in the NCR. I would like to hear from all of you on how 
OPM and local Federal Government agencies have been working 
with you on coordinating their pandemic response plans. Dr. 
Yeskey.
    Dr. Yeskey. At HHS, we have been working on our continuity 
of business, continuity of operations plans by trying to work 
through identifying our essential functions that we will need 
to carry out during a pandemic with a reduced workforce. We are 
also looking at identifying those critical personnel and those 
personnel who can work from home and then looking at the 
mechanisms by which we can enable them to work from home and 
carry out those functions.
    I can't comment on the interactions with OPM since this 
continuity of business is handled outside of my office, but I 
can get that information for you for the record.
    Senator Akaka. Thank you. Mr. Geldart.
    Mr. Geldart. Yes, sir. As I mentioned earlier, and to lead 
off of what Dr. Yeskey just said, to tail onto that, the 
Federal employees that work within all of these departments and 
agencies are residents within this region, residents within the 
States somewhere within this region. So from that perspective 
as each of the States are doing their planning and localities 
are doing their planning, within that are the people that come 
to work here. However, the higher level of planning that needs 
to happen, and this is where Dr. Yeskey was going towards, is 
those critical mission areas, those things that the Federal 
Government must continue to do to function.
    From the Federal Reserve Board perspective, to give an 
example, the Federal Reserve pays us all and they also pay many 
State employees. That is part of their mission. That would need 
to continue. So as Dr. Yeskey says, each agency is looking in 
to see what are those employees that consist and make up that 
critical mission area, and then what is that continuity of 
business plan that we have as an agency to ensure that those 
folks are being addressed so that we can maintain those 
critical mission areas.
    As the individual departments and agencies come up with 
those plans, that is going to be needed to take a look at are 
they doing prophylaxis? Are they looking at doing the Tamiflu 
things that were mentioned before, and are those contracted or 
are those stored? Those kind of things obviously are going to 
be needed to be coordinated throughout the region.
    Senator Akaka. Mr. Mauskapf.
    Mr. Mauskapf. We have done extensive work with the Federal 
Reserve Bank in Richmond, and as recently as 2 months ago the 
three of us met with the Federal Reserve Bank and the Board of 
Governors here in DC to discuss this very issue. We have got 
Memoranda of Understanding with each of our military bases, and 
when I talked about our antiviral distribution, I mentioned 
that we do it through the TRICARE clinics and military clinics 
assigned to them.
    As Mr. Geldart said, the Federal employees are residents of 
our communities and certainly we have planned for their 
coverage. The issue comes when we talk about continuity of 
government, continuity of operations planning and whether or 
not there are expectations for early delivery of medications, 
be they prophylaxis, antivirals, or flu vaccine when it becomes 
available. How is that going to be happening and what is the 
requirement? Identification of key personnel and the 
synergizing, if you will, of the Federal plans with our 
distribution and dispensing plan is key, and that has yet to 
happen with most of the agencies.
    Senator Akaka. Thank you. Mr. Darnell.
    Mr. Darnell. I would echo those comments and I think I 
would also add that we probably need, or not probably, in my 
opinion, we need more transparency in terms of OPM and what 
their plans are, under what conditions those plans will be 
implemented, and how we interact with that. Quite frankly, it 
would probably be nice just to get them to let us know when 
they are going to let people leave work early, as we are 
concerned, in the District of Columbia.
    So in this case, in particular, what telework plans do they 
have if they are going to allow people to work regular hours? 
Again, as Mr. Geldart indicated, what are their mission-
critical agencies or personnel that are going to continue to 
work, non-essential personnel who won't be working? Those are 
shifting patterns that affect our transportation systems, that 
affect our businesses, all those different types of things. So 
we just need more transparency with the Federal Government on 
those types of things.
    Fortunately, I think we are headed in that right direction. 
As Mr. Mauskapf said, we met 2 months ago with the Federal 
Reserve Board Governors. We are actually, as the District of 
Columbia Government, we are going to be meeting with my 
counterparts at OPM and on Capitol Hill in the Legislative 
Branch to discuss some other issues and this will be one topic 
that we bring up, as well.
    Senator Akaka. Thank you. Dr. Yeskey, the cost of treating 
patients infected with pandemic flu over time is going to be 
considerable, especially in light of the fact that 46.6 million 
Americans are without health insurance. Have you given any 
thought to the costs of care for those who do not have health 
insurance?
    Dr. Yeskey. Our overall strategy, again, is to try and keep 
people out of hospitals by preventing the transmission of 
disease. So part of our strategy is to minimize the number of 
people who are infected.
    With regard to the health care costs associated with the 
surge in patients who might seek hospital care, that is an area 
that is not covered within my office. But again, I would have 
to go back and talk to our CMS folks and try and provide you 
with an answer to that.
    Senator Akaka. Well, thank you. Thank you very much, all of 
you. You have been helpful to the Subcommittee in dealing with 
the pandemic flu. I am impressed by the work that our witnesses 
have done, but it is clear that we need to do more to prepare 
for a potential pandemic flu outbreak in the National Capital 
Region. I look forward to continuing this discussion on 
preparedness and staying informed about what additional 
progress is being made.
    I want to thank you again for your responses. I appreciate 
you being with us today. The record will remain open for 1 week 
for any statements or additional questions Members may have.
    With that, this hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]


                   FORESTALLING THE COMING PANDEMIC:
                    INFECTIOUS DISEASE SURVEILLANCE
                                OVERSEAS

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

                                 U.S. Senate,      
            Subcommittee on Oversight of Government        
                    Management, the Federal Workforce      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Coburn.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing to order. This is a 
hearing of the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of 
Columbia, and I call it to order. I want to welcome our guests 
and thank you very much for being here.
    This is the third in a series of hearings that my 
Subcommittee is holding to ensure that we are as well prepared 
as possible to handle the possible pandemic flu. Last week, we 
examined the role of the Federal Executive Boards in assisting 
in pandemic flu preparation, and earlier this week we examined 
National Capital Region efforts to prepare for such a public 
health emergency.
    Today's hearing focuses on efforts to project our defenses 
beyond our borders. The Government Accountability Office will 
also be releasing a report today entitled ``Global Health: U.S. 
Agencies Support Several Programs to Build Overseas Capacity 
for Infectious Disease Surveillance.'' That report reviews 
several of the programs we will hear about during this hearing.
    The consensus among public health specialists is not if 
there will be another pandemic influenza outbreak in the United 
States, but when and if we will be prepared when it happens. A 
pandemic of avian influenza, the disease being most closely 
monitored by the public health community, as you know, could 
kill hundreds of millions of people throughout the world and 
alter the balance of power within and between nations. That is 
how huge it is.
    As we will hear from Colonel Erickson shortly, a 2001 
National Intelligence Estimate concluded that emerging 
infectious diseases are a global security issue, destabilizing 
countries and institutions, impacting economic growth, and 
obstructing trade.
    Experts agree that the way to reduce the impact of a 
pandemic disease is to identify, isolate, and treat it at the 
place it emerges. Similar to our efforts to turn back the 
threat of terrorism, it is better to defeat this enemy in its 
homeland and not in ours.
    The topic of our hearing today, global disease 
surveillance, seeks to do just that. By identifying and 
isolating diseases early and where they first appear, we can 
minimize the potential impact on the United States by 
preventing the spread beyond its original borders. If they do 
spread, the early information provided by surveillance systems 
allows us to be better positioned to take early steps to 
protect Americans.
    The last major flu pandemic to hit the United States was 
the 1968-69 Hong Kong flu outbreak, which caused approximately 
34,000 deaths. Since then, we have become more vulnerable to 
dangerous diseases that move among countries. Increased 
international travel coupled with the impact of climate change, 
economic development, land use, and in some cases the breakdown 
of public health are all factors in the emergence of new and 
novel strains of disease that impact many countries.
    The rapid spread of severe acute respiratory syndrome in 
2003 demonstrated how a disease outbreak can pose a threat 
beyond the border of the country in which it originates. The 
impact of another severe pandemic flu outbreak could devastate 
the United States and, in particular, the U.S. economy.
    In a March 2007 report, the Trust for America's Health 
estimated that a severe pandemic flu outbreak would cause a 
drop in the U.S. gross domestic product of roughly 4.25 percent 
to 6 percent. The Trust defines a ``severe outbreak'' as one 
that would make approximately 90 million Americans ill and 
cause roughly 2.25 million deaths. An outbreak of this severity 
could almost certainly lead to a major economic recession. 
According to the Congressional Budget Office, a contraction of 
this size could cause the second worst recession in the United 
States since World War II.
    Hawaii has taken a lead in ensuring its residents and 
visitors are protected and prepared to respond swiftly to any 
pandemic disease outbreak. For example, Hawaii became the first 
State to screen incoming airline passengers on a voluntary 
basis. Health officials have stockpiled enough antiviral drugs 
to treat a minimum of 25 percent of the resident and visitor 
population. The Hawaii Department of health is developing a lab 
with the capability to test for avian flu and other flu 
strains. Hawaii has also established a Medical Reserve Corps to 
recruit volunteers to assist in a public health emergency.
    In March, the Hawaii Department of Health launched a public 
awareness campaign called ``Share Aloha, Not Germs'' to raise 
public awareness of pandemic threats and the steps everyone 
could take to minimize them. And this past July, Hawaii 
conducted the most ambitious pandemic flu exercise of its kind. 
The exercise, called ``Operation Lightning Rescue,'' involved a 
fictional commercial airplane carrying a number of suspected 
avian flu victims which crashed on Midway atoll while traveling 
from Jakarta to Mexico City. The exercise trained local, State, 
and Federal officials in limiting the impact of a flu outbreak.
    It is widely accepted that the key to control of any 
pandemic outbreak is early identification and rapid response. 
The earlier a dangerous disease is identified and steps are 
taken to respond, the higher the probability that such 
interventions, including development of vaccinations can be 
successful. The global disease surveillance activities we will 
examine in this hearing can help forestall a potential pandemic 
by identifying those threats where they first emerge in other 
countries.
    While international travel and other factors have changed 
the way emerging disease spreads among nations, the nature of 
emerging disease itself has also changed. Now, more than ever, 
the majority of diseases capable of creating a pandemic have 
come from animals and spread to humans. We need only look at 
some of the most recent global health threats to find evidence 
of this trend. West Nile, HIV, SARS, and most recently, avian 
influenza, or bird flu, are all diseases that have originated 
in animals and then spread to humans to create global health 
emergencies. This means that we must not only monitor new human 
diseases, but also those that arise in all types of animals.
    Emergence of the West Nile virus in 1999 in New York City 
is a clear example of the value of bringing the human health 
and animal health communities together. At first, the public 
health community was focused on reports of elderly people 
coming down with similar symptoms, but when flamingos and black 
crows began dying at the Bronx Zoo around the same time, a 
veterinary pathologist there, Dr. Tracey McNamara, made the 
connection between the sick birds and the sick people. Her 
analysis provided the breakthrough in diagnosing West Nile 
virus, a disease that had never before been seen in the Western 
hemisphere.
    Having just observed National Preparedness Month, I can 
think of no more important issue than situational awareness, an 
essential element of homeland security. Situational awareness 
must include being aware of emerging infectious diseases before 
they devastate our communities.
    So I look forward to hearing from all of our witnesses 
about their work in contributing to our awareness of those 
potential threats to our homeland. Again, I want to thank our 
witnesses for being here today to discuss this important issue. 
And I want to welcome the witnesses to this Subcommittee today: 
Dr. Ray Arthur, Director of the Global Disease Detection 
Operations Center at the Centers for Disease Control and 
Prevention at HHS; Dr. Kimothy Smith, Director of the National 
Biosurveillance Integration Center at the Department of 
Homeland Security; Colonel Ralph Erickson, Director of the 
Department of Defense Global Emerging Infections System at 
Walter Reed Army Institute of Research; Dr. Kent Hill, 
Administrator for Health at the U.S. Agency for International 
Development; and David Gootnick, International Affairs and 
Trade, U.S. Government Accountability Office.
    I want our witnesses to know that it is the custom of the 
Subcommittee is to swear all witnesses, and I would like to ask 
all of you to stand and raise your right hand. Do you solemnly 
swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Gootnick. I do.
    Mr. Arthur. I do.
    Mr. Smith. I do.
    Colonel Erickson. I do.
    Mr. Hill. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative
    Before we start, I want you to know that your full written 
statements will be part of the record. I also would like to 
remind you to keep your remarks brief, given the number of 
people testifying this afternoon.
    So, again, we appreciate your being here. Thank you for 
being here, and I will ask Mr. Gootnick to begin.

TESTIMONY OF DAVID GOOTNICK,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Gootnick. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gootnick appears in the Appendix 
on page 184.
---------------------------------------------------------------------------
    Mr. Chairman, I am pleased to discuss GAO's recent review 
of U.S. programs to build overseas capacity for infectious 
disease surveillance. As you have well stated, Mr. Chairman, 
H5N1 influenza in birds has the potential to evolve to a 
disease transmitted from person to person, setting the stage 
for a human flu pandemic.
    As you said earlier, SARS in Asia demonstrated, amongst 
other things, that international response to an outbreak is 
dependent on cooperation from affected countries, and West Nile 
virus highlighted the need for improved links between human and 
animal surveillance.
    In this environment, the United States has a key interest 
in building capacity within developing nations to identify and 
respond to outbreaks of infectious diseases. Building and 
sustaining this capacity poses considerable challenges, 
including shortages of trained personnel, limited lab 
capability, and weak or deteriorating infrastructure, including 
facilities, roads, and communications, in the overseas 
environment.
    In this context, you asked GAO to report on: One, the key 
U.S. programs that build capacity for infectious disease 
surveillance within developing nations; and, two, agencies' 
efforts to monitor the progress of these programs.
    We identified a set of activities generally embedded in 
larger programs that also conduct research, support outbreak 
investigations, link with larger networks, and, in the case of 
DOD, enhance readiness and force protection. In addition, even 
these programs which we have reviewed exist in a larger context 
that includes disease-specific surveillance, such as vertical 
systems for HIV, polio, and, increasingly, avian influenza.
    From 2004 to 2006, CDC, USAID, and DOD obligated about $84 
million to capacity-building efforts. CDC's GDD Initiative is 
establishing centers of excellence overseas that, amongst other 
things, strengthen labs, develop active surveillance systems, 
and train local health workers. CDC and AID together support 2-
year field epidemiology training programs in 24 countries. 
These programs have trained over 350 epidemiologists and lab 
professionals. For example, CDC's Central American program 
reports that it has trained, placed, and supported 58 master's 
level epidemiologists and provided field-based training to a 
larger cadre of health workers at local levels. AID and CDC 
also provide technical assistance and training to African 
nations to integrate disease-specific surveillance systems and 
prepare to meet the broadened national requirements of 
recognition and response as established by the revised 
international health regulations.
    DOD, through its GEIS program, has funded more than 60 
small-scale projects for surveillance and capacity building, 
again, within their larger mission of readiness and force 
protection. For example, in parts of Southeast Asia, GEIS has 
disseminated a syndromic surveillance system designed for 
resource-poor settings.
    Finally, AID independently funds a number of activities to, 
for example, build capacity and develop tools for monitoring 
and evaluation.
    Regarding coordination, we found that CDC and AID through 
cooperative agreements, joint funding, and staff details 
frequently work in partnership. DOD and CDC report that 
collocation of major operational centers, for example, in Kenya 
and Egypt, facilitates communication.
    In a study released this week, the Institute of Medicine 
observed that collaboration between CDC and DOD is critical to 
ensure the most effective use of resources targeting avian 
influenza. The IOM recommended, amongst other things, that DOD 
further strengthen this critical linkage for emerging 
infectious diseases.
    Individual programs monitor activities, such as the number 
of trained individuals and the number of outbreak 
investigations conducted by their trainees. They recently began 
efforts to evaluate the larger impact of these programs, but 
have yet to report results. Evaluating these programs will be 
challenging for a number of reasons.
    First, capacity efforts are generally collaborations within 
a host country health ministry, making impact of a program 
difficult to isolate.
    Second, data quality and competing priorities may 
complicate efforts to evaluate programs.
    And, finally, demonstrating program impact is very 
difficult in the complex and changing environment in which 
these programs operate.
    In closing, Mr. Chairman, a number of activities are 
underway. However, outside of the vertically oriented disease-
specific systems, support for broadly targeted assistance to 
build capacity for infectious disease surveillance has been 
limited. Numerous studies and experts have noted that 
investment in these programs is small compared to the risks of 
emerging infectious diseases and the challenges associated with 
sustained preparation and effective response.
    Mr. Chairman, this concludes my statement. I am happy to 
answer your questions.
    Senator Akaka. Thank you very much, Mr. Gootnick.
    Now we will hear from Dr. Arthur.

  TESTIMONY OF RAY ARTHUR, PH.D.,\1\ DIRECTOR, GLOBAL DISEASE 
 DETECTION OPERATIONS CENTER, CENTERS FOR DISEASE CONTROL AND 
    PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Arthur. Good afternoon, Chairman Akaka. My name is Dr. 
Ray Arthur, Director of CDC's Global Disease Detection 
Operations Center. I have 15 years of specialized experience in 
detecting and responding to global disease outbreaks, including 
6 years at the World Health Organization and 5 years at the DOD 
Medical Research Unit in Cairo, Egypt. I am pleased to discuss 
CDC's global health investments that build capacity for disease 
detection and response.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Arthur with attachments appears 
in the Appendix on page 203.
---------------------------------------------------------------------------
    CDC has approximately 200 staff assigned to 50 countries 
throughout the world and supports an additional 1,200 locally 
employed staff in these countries. As you have indicated, SARS 
demonstrated that a highly infectious disease can quickly 
spread around the world. In 2004, recognizing this, the U.S. 
Congress provided funding for CDC to establish the Global 
Disease Detection Program. The GDD program built on CDC's 
health strengths and brought together three established 
programs: The Field Epidemiology Training Program that was just 
mentioned, which provides training on the investigation and 
control of outbreaks; the International Emerging Infections 
Program, which integrates disease surveillance, research, and 
prevention and control activities; and, third, influenza 
activities, including the development of surveillance capacity.
    In addition, the GDD Program coordinates with other global 
health programs at CDC, such as HIV/AIDS, polio, and measles, 
to leverage resources that contribute to outbreak detection and 
response. As an example of this capacity, one of the first 
places to identify the SARS coronavirus was a global polio 
network laboratory in China.
    Earlier this year, staff from the CDC Global AIDS Program 
in Nigeria, played a critical role in the diagnosis of the 
first human case of avian influenza in Sub-Saharan Africa. The 
GDD Program then utilized its regional resources to deploy 
staff and continue the response activities.
    The central focus of the GDD Program is the establishment 
and expansion of the GDD Centers mentioned by Mr. Gootnick. 
Strategically positioned around the world, these centers focus 
on five activities in key areas: Outbreak response, 
surveillance, training--both epidemiology and laboratory--
research, and networking. CDC currently operates five centers--
two mature centers in Thailand and Kenya, and three developing 
centers in Guatemala, China, and Egypt.
    The GDD Operations Center serves as CDC's central 
coordination point for international outbreak information. 
Information is collected from many sources, including GDD 
centers, other CDC programs, WHO, DOD, USDA, USAID, Homeland 
Security, the State Department, and Georgetown University's 
Project Argus, among others. CDC scientists analyze the 
information, determine the public health threat, and guide the 
appropriate level of response.
    For example, CDC and other international partners are 
currently responding to an outbreak of Ebola in the Democratic 
Republic of Congo, DRC. In Collaboration with Argus, CDC began 
tracking reports of unexplained illness in DRC in late August 
and alerted WHO and other partners once this was determined to 
be a significant health threat. CDC has deployed a physician to 
provide an assessment of the situation and, with support from 
the CDC Global AIDS Program in Kinshasa, to guide a larger 
response. Shortly thereafter, on September 10, a CDC lab 
confirmed Ebola. CDC then deployed a response team comprised of 
nine scientists, and we continue to work closely with the 
Ministry of Health, WHO, and other partners to stop this 
outbreak.
    During 2006, the GDD centers collectively responded to more 
than 144 disease outbreaks, including avian influenza, 
hemorrhagic fevers, meningitis, cholera, plague, and 
unexplained sudden death. CDC currently considers influenza to 
be the most urgent threat to human health. Bilaterally, and 
globally through WHO, CDC is providing support to over 40 
countries to advance the capacity to detect influenza viruses 
with pandemic potential. CDC is one of four WHO collaborating 
centers for influenza. As such, CDC serves as a global resource 
and reference center for the WHO Influenza Surveillance 
Network. Between 2003 and 2007, CDC received 1,445 suspect 
avian influenza specimens through this system, of which 508 
were positive, and also received nearly 20,000 non-avian 
influenza viruses through this network.
    In addition, CDC has conducted numerous training programs 
to prepare rapid response teams in Africa, Asia, and Latin 
America. Since 2003, CDC has responded in two and helped 
contain many outbreaks of avian influenza globally, and all 
responses were initiated within the target goal of 48 hours.
    CDC looks forward to continued collaboration with our 
partners to implement additional activities that will further 
enhance capacity.
    This concludes my testimony, and I would be pleased to 
answer any questions you may have.
    Senator Akaka. Thank you very much, Dr. Arthur.
    At this time, before I call on Dr. Smith, we are glad to 
have Senator Coburn here.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman.
    Senator Akaka. Do you have a statement you would like to 
make?
    Senator Coburn. No. I may put a statement in the record. 
Thank you, sir.
    Senator Akaka. Thank you, Senator.
    Dr. Smith, will you please proceed with your testimony?

TESTIMONY OF KIMOTHY SMITH, D.V.M., PH.D.,\1\ ACTING DIRECTOR, 
 NATIONAL BIOSURVEILLANCE INTEGRATION CENTER, CHIEF SCIENTIST, 
 OFFICE OF HEALTH AFFAIRS U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Smith. Certainly. Thank you, sir. Mr. Chairman, Members 
of the Subcommittee, I am Dr. Kimothy Smith, Acting Director of 
the National Biosurveillance Integration Center for the 
Department of Homeland Security. I appreciate this opportunity 
to discuss with you today the advances in the program and 
particularly the incorporation of global biosurveillance data 
and wild animal information into our biosurveillance products.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Smith appears in the Appendix on 
page 220.
---------------------------------------------------------------------------
    Our mission to leverage and integrate existing 
biosurveillance capabilities to provide early recognition of 
biological events of potential national significance was 
mandated initially by Homeland Security Presidential Directives 
9 and 10. Additionally, the newly signed Public Law 110-53 
further codifies our cross-domain, integrative biosurveillance 
mission and gives us clear guidance for our efforts.
    Today I will provide a continuing vision for the NBIC, 
highlight for you the advances we have made, and provide you 
with the current status of the program. Additionally, I will 
address our integration and interface with sources of global 
biosurveillance and wild animal biosurveillance information. 
Last, I will mention the challenges that remain before us in 
this effort and my view for onward movement towards meeting the 
mandates the country has lain before us.
    It is essential that I convey to you that NBIC is more than 
an information technology solution to the Nation's integrated 
biosurveillance challenge and is unique in both mission and 
breadth. The heart of the NBIC, though, is relationships 
between people and the agencies and organizations they 
represent. These are relationships vital to obtain access to 
the valuable, often sensitive, and sometimes classified 
information collected and used by the NBIC partners. NBIC does 
have and will continue to pursue relationships with personnel 
from a wide variety of Federal agencies and other relevant 
entities. We are developing relationships with various State 
intelligence fusion centers and with entities such as 
Georgetown University's Argus Project, which will be 
represented here today.
    As for where we stand today, it should be noted that our 
center is operational today. Though not at its full operational 
capabilities, we have had a 24-hour-a-day, 7-days-a-week 
national biosurveillance watch desk up and working since 
December 2005, responding to real-world events. Facilities have 
been acquired and personnel requirements have been finalized, 
with two-thirds of our personnel requirements filled to date. 
Six significant Federal partners have already signed 
memorandums of understanding for mission support and 
integration with five others in an effort to best determine 
their abilities to contribute.
    Interagency agreements and memorandums of agreement have 
also been developed for the integration of subject matter 
experts from both the Center for Disease Control and Prevention 
and the Armed Forces Medical Intelligence Center. These are 
just some of the significant advances I would like to highlight 
for you that our program has.
    Currently, the acquisition process for our biosurveillance 
program is based on monitoring sources for significant 
information to be used in product development for dissemination 
to decisionmakers and key stakeholders, and includes 
information that is global in scope. Key sources in use include 
government agency reports and open-source information, such as 
Argus, the Office International des Epizooties, or OIE; the 
Centers for Disease Control and Poverty Global Disease 
Detection Program--Ray Arthur sitting next to me; the World 
Health Organization; and the Department of Defense GEIS 
program, whom you will hear from in a moment, among others.
    Another important function of NBIC is the integration of 
wildlife biosurveillance information as a potential key early 
indicator of bioevents. Government organizations like the 
Department of Interior, the Department of Agriculture, and the 
U.S. Geological Survey, along with such information networks 
such as the Global Avian Influenza Network for Surveillance 
(GAINS), that receives support from my colleagues here from 
USAID as well as CDC, as well as the International Species 
Information System/Zoological Information Management System 
(ISIS/ZIMS), all play a key role in monitoring and reporting 
what could be very early indicators of a significant bioevent 
by way of our wildlife.
    To this end, we have clear interest in and intend on 
supporting, where possible, the ISIS/ZIMS efforts, as well as 
deepening our relationship with our GAINS colleagues for 
enhanced information sharing beneficial to the broader 
biosurveillance community.
    Mr. Chairman and Members of the Subcommittee, as with any 
maturing program there are challenges. While continuing to move 
forward to meeting our goals, we are cognizant to keep a heads-
up posture and maintain a broad vision with realistic 
assessment of the biosurveillance mission to assure success. We 
can achieve success in this critical mission with your support 
and that of our interagency partners and the members of the 
biosurveillance community, such as those testifying here today.
    Thank you for your time, and I look forward to your 
questions.
    Senator Akaka. Thank you very much, Dr. Smith.
    And now we will hear from Colonel Erickson. Will you please 
proceed?

    TESTIMONY OF COLONEL RALPH L. ERICKSON, M.D., DrPH.,\1\ 
  DIRECTOR, DEPARTMENT OF DEFENSE GLOBAL EMERGING INFECTIONS 
SURVEILLANCE AND RESPONSE SYSTEM (DOD-GEIS), U.S. DEPARTMENT OF 
                            DEFENSE

    Colonel Erickson. Mr. Chairman. Senator Coburn, Members of 
the Subcommittee, thank you for inviting me to speak with you 
today. I am Colonel Ralph Erickson, Director of the DOD Global 
Emerging Infections Surveillance and Response System, a program 
which is abbreviated DOD-GEIS.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Erickson appears in the 
Appendix on page 228.
---------------------------------------------------------------------------
    The DOD-GEIS was created in 1996 by a Presidential Decision 
Directive that expanded the role of the DOD to address threats 
to our Nation and others posed by emerging and re-emerging 
infectious diseases.
    DOD-GEIS has four goals, of which the first, surveillance 
and detection, is the primary area of concentration. Anchored 
by five robust overseas laboratories in Thailand, Indonesia, 
Kenya, Egypt, and Peru, the DOD-GEIS team operated in 77 
different countries worldwide in fiscal year 2006 and fiscal 
year 2007.
    Our efforts to improve outbreak detection including 
electronic surveillance systems which apply computer and 
information technology in places with very few resources. These 
systems are currently operational in Indonesia, Laos, and Peru. 
Other recent accomplishments of DOD-GEIS are these:
    Our Rift Valley Fever risk prediction project provided us 
warning of the Rift Valley Fever epidemic in East Africa in 
September 2006, 2 months before the outbreak began. The Navy's 
lab in Cairo, Egypt, responded to influenza outbreaks in Iraq 
and Afghanistan. Not surprisingly, this same lab has become the 
WHO influenza regional reference laboratory for the Eastern 
Mediterranean region and is working in many countries in the 
Middle East and Central Asia. In all, DOD-GEIS partners are 
currently collecting influenza isolates at 273 distinct sites 
in 56 different countries. DOD-GEIS works closely with other 
U.S. Federal agencies who are also engaged in the surveillance 
of infectious diseases. Of note is the CDC-DOD Working Group.
    To further enhance our integration of DOD-GEIS surveillance 
efforts globally, we have a military medical officer assigned 
to the World Health Organization in Geneva, Switzerland. Our 
DOD-GEIS network is replete with talented physicians, 
veterinarians, entomologists, and laboratory professionals 
drawn from all of the Uniformed Services where the culture of 
One-Health/One-Medicine is already well established.
    As an example of this, since 2003, the Navy's lab in Cairo, 
Egypt, and the Army's lab in Nairobi, Kenya, have worked with 
the Centers for Disease Control and Prevention and host Nation 
regional partners to collect wild bird surveillance samples to 
detect circulating strains of avian influenza virus. 
Incidentally, our Navy lab in Egypt was the first to detect, 
diagnose, and confirm highly pathogenic avian influence, H5N1, 
in poultry in Afghanistan, Djibouti, Egypt, Iraq, Jordan, and 
Kazakhstan.
    In conclusion, the Institute of Medicine, in a review of 
DOD-GEIS, described it as ``a critical and unique resource of 
the United States in the context of global affairs.'' It is the 
only U.S. entity that is devoted to infectious diseases 
globally and that has broad-based laboratory capacities in 
overseas settings.
    Again, Chairman Akaka, Senator Coburn, Members of the 
Subcommittee, thank you for this opportunity to present to you 
today. Thank you particularly for taking this issue of emerging 
infectious diseases so seriously.
    I would be happy to answer any questions which you might 
have at this time. Thank you.
    Senator Akaka. Thank you very much, Colonel. Now we will 
hear from Dr. Hill.

 TESTIMONY OF KENT R. HILL, PH.D.,\1\ ASSISTANT ADMINISTRATOR 
  FOR GLOBAL HEALTH, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Hill. Senator Akaka, Senator Coburn, thank you so much 
for convening this important hearing and inviting us to 
participate, and it is a privilege to be here with my 
colleagues from the other agencies with whom we work so closely 
on many of these issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hill appears in the Appendix on 
page 238.
---------------------------------------------------------------------------
    My comments will focus on the work and vision of USAID, and 
I would first like to note that our programs strengthen 
surveillance systems by building developing country capacity to 
detect newly emerging diseases. Second, our programs focus on 
fully implementing both arms of the surveillance loop, that is, 
early detection and rapid and effective response. Third, 
recognizing the increased threat of diseases of animal origin, 
our programs are fostering critical links between human and 
veterinary public health. And, finally, interagency 
collaboration is absolutely vital to our work and the work of 
the USG to deal with these issues.
    Diseases are not only significant public health threats, as 
has been noted; they jeopardize international commerce, 
development, and security. The estimates of the cost of SARS to 
the global economy is between $30 and $100 billion. As has been 
mentioned, the potential impact of an influenza pandemic 
similar to that of 1918 could take the lives of 50 to 100 
million people and devastate the global economy for years.
    Such outbreaks are capable of destabilizing governments. 
They increase the threat of international terrorism. In short, 
anything we do abroad to affect this affects the national 
security of this country.
    USAID is in a critical position to help countries develop 
these capacities and has taken on this challenge through 
several of our programs targeting health system surveillance 
capacity. The GAO report released today captures some of the 
central efforts, such as our support for Field Epidemiology 
Training Programs and WHO's Integrated Disease Surveillance and 
Response (IDSR).
    But in addition, I would like to mention that important 
contributions are also being made by our disease-specific 
programs. For example, since the mid-1980s, about $290 million 
has been expended by USAID on polio surveillance in 
approximately 40 countries, and as mentioned here already, some 
of those labs work on other diseases besides polio. They have 
impact elsewhere. One hundred and forty-eight national and 
regional polio laboratories and hundreds of medical 
surveillance officers have been trained.
    But we also do work in tuberculosis and in HIV/AIDS and 
malaria. Although these are disease-specific initiatives, 
anytime you improve surveillance for specific diseases, you 
improve the capacity to detect and respond to other diseases. 
We have programmed $345 million to limit the spread of avian 
influenza and to prepare for a possible pandemic, and this is 
very important.
    USAID and HHS and CDC are working together to support the 
African Field Epidemiology Network. USAID and CDC are also 
jointly developing a Field Epidemiology and Laboratory training 
Program in Nigeria that will be the first in Africa to 
integrate veterinary, laboratory, and field epidemiology 
training. We work with the military, obviously, on NAMRU in a 
variety of places. In fact, it is an excellent example of 
interagency coordination, with the surveillance work 
represented by the people before you today.
    We work with important NGOs, such as the Wildlife 
Conservation Society, through whom we have helped to establish 
the Wild Bird Global Avian Influenza Network for Surveillance, 
which is also called GAINS and is tracking influenza in wild 
birds worldwide.
    One of the most important lessons in human health of the 
last 30 years is the fact that the human population is facing 
an increasing risk from infectious diseases of animal origin. 
Of all the pathogens that infect humans, about two-thirds 
originated in animals--a sure sign that this has to be a focus 
of our work.
    Several recent outbreaks of zoonotic diseases demonstrate 
that our investments really make sense. It was mentioned 
already this afternoon that in Eastern Africa, specifically, 
Tanzania, the response to a Rift Valley Fever outbreak this 
year could not have happened apart from work that was done on 
other topics, such as on avian influenza, which brought the 
Ministry of Health together with other ministries--the Ministry 
of Agriculture--in a way that they had not coordinated before. 
It helped them to early diagnose and respond to the outbreak.
    Finally, let me just note that in the future what we need 
to do more of is study how we can scale up and more effectively 
work together. We have commissioned the Institute of Medicine 
at the National Academy of Sciences to convene an expert 
consensus committee to consider the challenge of achieving 
sustainable global capacity for surveillance and response to 
emerging zoonotic diseases. A full report will be released in 
2008, and I anticipate the finding will guide programming for 
zoonotic diseases and enable us to be better prepared to make a 
difference in the future.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Dr. Hill, for your 
testimony.
    Dr. Arthur, despite our efforts to control emerging threats 
at the source, I understand that vaccine production can lead to 
the creation of even more dangerous forms of these diseases. 
China has an active vaccine research program for bird flu. They 
also vaccinated their chickens.
    Is there any indication that China's vaccination research 
and vaccination of poultry contributes to continued mutations 
of the bird flu virus?
    Mr. Arthur. Thank you for your question, Mr. Chairman. The 
use of animal vaccines is a little bit out of my scope of 
expertise. I would consult with some of the many veterinarians 
and the influenza specialists that we have in Atlanta and be 
glad to provide that additional information for the record.
    Senator Akaka. Well, thank you for that, Dr. Arthur.
    The global disease surveillance and capacity-building 
programs we are discussing today have been around for several 
years. I am concerned that you are just beginning to evaluate 
the impact of these surveillance programs. Why has this taken 
so long? Dr. Hill.
    Mr. Hill. Some of the programs that the GAO report noted 
are new and have not yet been evaluated. Some of the other 
programs, however, are much older, the polio programs, and our 
work in other diseases, which have been operating long enough 
that we have been able to do empirical studies to see if we 
have had an impact.
    For example, the evidence on the number of polio cases is 
pretty startling. There were hundreds of thousands of cases in 
the late 1980s, compared to less than two thousand in 2006. So 
we know that the surveillance and the response to polio is 
working.
    Even influenza is an interesting case. It is also very new. 
But we can tell that in places like Vietnam and other places in 
the region that what we are doing is making a difference. But 
we acknowledge that the fuller-scale evaluation is simply going 
to take a little time.
    The United States is very disciplined about its reporting 
to Congress. We need to be able to promote results to make a 
difference.
    Senator Coburn has been a fierce fighter for being able to 
show results in malaria. If you compare what we were doing a 
few years ago on malaria prevention and surveillance with now, 
the results are very encouraging. So when we put our minds to 
it, we can do a good job.
    Senator Akaka. Dr. Arthur.
    Mr. Arthur. You are correct, some of the programs have been 
in existence for several years. The GDD Program attempts to 
bring these together so that the sum of the program itself is 
more than the individual parts, and to develop a long-term 
strategy to enhance the capabilities of all the programs.
    Also, by having the GDD Program and these three programs 
already mentioned as a part of those, it increases our 
accountability, and we are able to develop monitoring and 
evaluation systems to assess the progress of these programs. As 
was mentioned by Mr. Gootnick, the evaluation was done for 
2006. We now have that baseline. We will be starting our 
evaluation of 2007 activities in December, and we will be glad 
to share the findings of those with you early in 2008.
    Senator Akaka. Thank you.
    Colonel Erickson, what has DOD done to evaluate the impact 
of GEIS for host countries?
    Colonel Erickson. Mr. Chairman, we have learned a lot from 
our colleagues, especially some of those that are at the table, 
as to the proper ways to evaluate surveillance systems. In 
fact, there is one particular reference which we hold to which 
was published in 1988 and then republished in 2001, which 
actually sets forth the standards for evaluating a surveillance 
system, and I can get that for you. But it has some very 
practical advice in it. Is the system actually doing what it is 
called to do? Are the expectations being met? Is it 
sufficiently sensitive? Is it timely to be able to report back, 
etc.? Is it well accepted? In the case of our work, well 
acceptance would not be just the military but the host country, 
the community, the location at which the surveillance is going 
on.
    In practice, the way we evaluate our programs, we have 
regular reporting requirements from our GEIS partners, which is 
something that we look at very closely, monthly reporting, 
quarterly, and annual reporting. In addition, we make field 
sites. I can tell you that in my first year as the Director of 
GEIS, I visited all five overseas labs to conduct personally 
that very type of investigation and inspection.
    In addition, we have outside external reviews which go on. 
In 2001, the Institute of Medicine published a book which you 
may be familiar with, which evaluated all of GEIS, and as Mr. 
Gootnick in his opening comments made mention to, the Institute 
of Medicine has just finished a new evaluation of our influenza 
surveillance programs. The pre-publication meeting for that was 
just this last week, and we are expecting that to hit 
publication in the next month, and I would be more than happy 
to make sure that you get copies of that.
    Senator Akaka. Thank you very much. At this time I would 
like to call on Senator Coburn for his questions.
    Senator Coburn. Thank you, Mr. Chairman.
    I have read the GAO report. How often do you all drill 
together--in other words, create a scenario that is not true 
but respond to it in a coordinated fashion? Anybody want to 
answer that?
    Mr. Hill. I would mention that we are in the process of 
putting together a tabletop simulation--and tomorrow, in fact, 
I have a meeting with the group that is designing the 
simulation. We will be working with the same folks who put 
together for CDC, in Atlanta, a series of tabletop exercises on 
avian influenza. We are going to do it within the next few 
weeks here in Washington at the Assistant Secretary of State 
and Assistant Administrator of USAID level. And we are putting 
the final touches on that to work specifically on the avian 
influenza. That is the most recent one I know of related to 
this sort of activity.
    Senator Coburn. And that will include all the rest of the 
gentlemen at this table?
    Mr. Hill. Yes, I think it will include all the agencies and 
departments represented at the table.
    Senator Coburn. OK. But we have not done that yet, right? 
We have not said, ``here is a scenario, a false scenario, we 
have generated some type of practice, so that if we see another 
SARS or we see H5N1, do we know what we are doing and that it 
is going to coordinate?''
    Mr. Hill. We actually are modeling this in part on what CDC 
has done several times already related to avian influenza, but 
we are bringing it to Washington to work on the agencies that 
are here.
    Senator Coburn. OK. Do your IT systems communicate between 
the different agencies--DHS, CDC, USAID, Department of Army? Do 
you all have effective communication of your data links?
    Mr. Smith. Sir, I find that an excellent question. I really 
do. And I am going to be the first one up to the plate here to 
say that, looking toward the future, I think that they 
absolutely must. I find that Health and Human Services and the 
Centers for Disease Control are taking the lead with the Office 
of National Coordination and with the National Center for 
Public Health Informatics, and setting a standard for a Federal 
health architecture, setting a standard for the National Health 
Information Exchange. We, at the Department of Homeland 
Security, are involved in those activities and making sure and 
certain that our IT systems that are involved, particularly 
with biosurveillance, are compliant and will be able to 
exchange information.
    Senator Coburn. So, in other words, the answer to the 
question is the biosurveillance data now are not compatible 
from agency to agency.
    Mr. Smith. Sir, I would not say that is true across the 
board.
    Senator Coburn. Well, but it is not totally compatible so 
that the data you have and the analysis you have are available 
to all the other groups that we are depending on for 
biosurveillance.
    Mr. Smith. I would have to say that across the board that 
is correct, sir.
    Senator Coburn. DHS is really at the center of this. Do you 
all have a program that coordinates right now the integration 
of data? Or is that what you were speaking to, you are 
developing that and planning on having that, but you do not 
have a coordinated, integrated program right now so that 
everything could feed to DHS?
    Mr. Smith. Sir, that is correct. That is what we are in the 
process of developing now.
    Mr. Hill. But, Senator, I should probably mention that the 
agreement between CDC, HHS, USAID, and others has been to 
facilitate WHO as the center for collecting much of this 
information with respect to our international programs. And so 
there has been a lot of work that has been put into making sure 
that systems are in place, that we will flow through WHO a lot 
of this information. So there is an attempt----
    Senator Coburn. OK. Well, that is great. So we do have one 
place. Do you all have access to all the data that flow into 
WHO?
    Mr. Hill. As far as I know, the information we share, the 
whole point of that is information----
    Senator Coburn. To get a coordinated response.
    Mr. Hill. Right.
    Senator Coburn. But does every other group on this panel 
have access to that information, that we have shared in total?
    Mr. Hill. The international health regulations, which WHO 
has been working on and we are trying to get as many countries 
involved in as possible, the whole requirement of that is that 
people get the information or countries get the information to 
WHO. The expectation or the requirement is that WHO get it back 
to the rest of the globe in the appropriate way so that the 
information is useful. Whether all the countries are----
    Senator Coburn. Well, I am not really concerned about the 
rest of the countries. I am concerned about what we are doing 
and what we are collecting and what we are trying to create in 
terms of surveillance capability outside of this country. Do we 
have the IT capability to know what that is if we put it in 
and--I know we are building that at DHS, but what we give up 
and goes to a centralized collection point, does everybody have 
access to that now?
    For example, if your computers cannot talk to DHS but you 
both can talk to WHO, can Dr. Smith get the information that 
you have computed to WHO and bring it back to DHS?
    Mr. Hill. I would need to get an authoritative answer on 
that, but I believe the answer would be yes. I think anything 
that we could communicate to WHO we would certainly be able to 
communicate to each other.
    Senator Coburn. Should we have had WHO representatives here 
today, especially our delegates to WHO? And could we maybe ask 
them some questions on the basis of what we are finding here 
today and get their input, because that would have been 
probably helpful to see what their input is since they know 
what that is.
    Colonel Erickson. Senator Coburn.
    Senator Coburn. Yes, sir.
    Colonel Erickson. If I could just weigh in, in terms of 
more perhaps pedestrian IMIT capabilities, we use computers and 
e-mail and push data, use VTCs, telephones, etc. DOD has a very 
close working relationship with CDC to the point where we are 
sharing reports, we are sharing isolates. We, in fact, use them 
as sort of our Supreme Court where we send those isolates for 
further confirmation and for selection of isolates for, for 
instance, vaccine development.
    Within the WHO, as I mentioned in my earlier comment, we 
have a military medical officer who is assigned there full time 
who provides that link to much of that information. In 
addition, we are a member of the Global Outbreak Alert Response 
Network (GOARN), which also provides a forum for getting that 
information out to the different agencies, many of those 
represented here.
    And so there are good systems in place. We can do better, 
certainly, that you are alluding to, but I would not want to 
leave you with the impression that we are not----
    Senator Coburn. I know you have the capability to 
communicate, but the problem we have across the government is 
we have stovepiped IT programs that very much limit the 
capability of accessing people who need to know and can utilize 
the information that is easy.
    Colonel Erickson. Sure.
    Senator Coburn. And that is one of the goals. We spend $65 
billion a year in this country on new IT programs, of which $20 
billion gets wasted every year. And so this is an important 
area. If we are going to allow you to be more efficient and 
functioning better, what we have to do is make sure that 
everybody's goal is to eventually get to where we can talk to 
one another through our computers, analyzing data, so we do not 
have to buy new programs so that one computer can talk to 
another computer. That was the purpose for the question.
    The GAO identified several weaknesses within DHS. One was 
there has not been consistent leadership at DHS for this 
program, and that is probably a legitimate criticism, and that 
is no reflection on you whatsoever.
    Does DHS have a plan with metrics and milestones for 
addressing the weaknesses that GAO identified in their report?
    Mr. Smith. Yes, sir, we do.
    Senator Coburn. And is that plan available to this 
Subcommittee?
    Mr. Smith. Certainly it will be.
    Senator Coburn. OK. Well, I would very much appreciate a 
copy of that.
    I just have one other comment, Mr. Chairman, and then I 
have to go to the floor to offer some of my dreaded earmark 
amendments so that we can get money to run the government 
instead of run the politicians.
    I think back to the SARS outbreak. We did not get a handle 
on that until we stopped commerce. Under the threat of the stop 
of commerce did we get compliance. And our goal has to be to 
get where we do not have to go to that level. And I know that 
is what the goal is in terms of trying to build surveillance 
teams and everything else.
    Would any of you care to comment on how we could have done 
that better and not wasted the time where we finally had WHO 
issue a travel ban to get compliance out of a foreign country 
who at first was denying that there was an epidemic--in other 
words, what it did is more people died because of the denial 
that there was a problem. What can we do as America--we cannot 
imfringe on the sovereignty of other countries, but can we work 
better and can we bring to bear forces sooner so that we get 
the proper reaction? And I am talking all types of leverage--
suspension of aid, all these other things--to get people, when 
they have the resources and know how to do it, to actually 
report it. Any comments? Yes, sir, Dr. Arthur.
    Mr. Arthur. That is exactly the intent of the International 
Health Regulations, which came into force for the United States 
in July of this year. There had been a 10-year process to 
revise those regulations and move away from a list of three 
diseases to a concept of identifying a particular health threat 
so that it would account for new entities such as SARS or the 
next unknown disease that may occur.
    Senator Coburn. And in your position at CDC, do you feel 
pretty comfortable that we are going to see--because of the new 
regulations, we are going to see much greater coordination 
because of those?
    Mr. Arthur. I think the international political pressure 
will increase dramatically since under the new International 
Health Regulations, WHO could have gone to China in December 
when I was in Geneva and first knew about these reports several 
months before it became publicly known--this was in 2002--go to 
China under the new International Health Regulations and say, 
look, another member state has reported that they see this 
event, you are required under the International Health 
Regulations to respond in 24 hours and provide that 
information. If China then does not do so, then WHO would use 
other political pressures, other countries and so forth, which 
now have signed--all 193 countries in WHO have agreed to accept 
the International Health Regulations--then would be in a 
position to leverage tremendous international pressure on China 
to do the right thing. China, as a signatory to the IHR, they 
would be required to respond to that.
    Senator Coburn. And so what are the actual teeth of that 
response? If they fail to respond, what are the teeth? They 
have signed an agreement. They are not complying with the 
agreement.
    Mr. Arthur. The IHR unfortunately does not have any 
punitive or penalty assigned to it, so WHO is not in a 
position----
    Senator Coburn. So, therefore, it is going to require 
courage on the part of the people leading WHO to do a travel 
ban early, to threaten those things.
    Mr. Arthur. Right. But the information also will be 
disseminated internationally to all the other countries saying 
that we have this situation in China, we have asked for 
information, we do not know what is going on. The WHO Director 
General, if she determines the event to be a public health 
emergency of international concern, has already a pre-rostered 
committee that would advise her on the recommended measures 
that she needs to take, and it could include travel bans, it 
could include travel restrictions, whatever. But this would be 
the international community that would be dealing with the 
problem.
    Senator Coburn. But you would agree the thing that got 
action was the travel ban on that? When that was issued, they 
started cooperating. Is that correct? I mean full-fledged 
cooperation. When there was a travel ban issued by the WHO, 
what happened? All of a sudden we had admission there is a 
problem and help. Right?
    Mr. Arthur. They were very closely timed with each other, 
yes.
    Senator Coburn. Yes, all right.
    Thank you, Mr. Chairman. Thanks for holding this hearing.
    Senator Akaka. Senator Coburn, just to answer your question 
about WHO, it is not that we have not thought of them, but we 
received the message that, for whatever reason, they would not 
testify before Congress.
    Senator Coburn. Actually, I was wanting our members that 
come from our country to WHO to testify, not WHO. In other 
words, our delegates, because they represent us there, and I am 
certain that we can ask them questions--I would hope. It is not 
surprising that a lot of international agencies are not very 
transparent and responsive to some of the demands of Congress, 
even though we contribute about 25 percent of all their 
funding.
    Thank you.
    Senator Akaka. Thank you very much, Senator Coburn.
    My question is to Dr. Hill, Dr. Erickson, and Dr. Arthur. 
The programs you have summarized in your statements describe 
surveillance of known diseases. But what about diseases we have 
not seen before? It took many weeks for human and animal health 
experts to figure out that it was West Nile virus, a disease 
not previously seen in the Western hemisphere, that was killing 
the birds and people in 1999 in New York City.
    Can you give us assurance that your surveillance systems 
can help to identify and monitor new or emerging diseases that 
have not been seen before in this country? Dr. Hill.
    Mr. Hill. I think the first thing I would say is it would 
probably be a question almost like a puzzle--the process of 
elimination. If you have the right labs set up globally and you 
know you have got a problem, there is an outbreak of something 
that is killing people with high fevers, etc., the most obvious 
thing, of course, to do would be to test for the known likely 
possibilities.
    If all those tests come up negative, in the sense it is 
clearly not what it is, it is obviously something else. Will 
that tell you what it is necessarily? No. But it will at least 
tell you that you have got a problem that you better address 
pretty quickly.
    As I understand it on HIV, one of the big problems was we 
did not pick up years, maybe even decades, before that 
something was going on, that had we known or had our 
surveillance systems been more sensitive, we might have 
responded much quicker and perhaps have stemmed the tide. But 
we did not even realize or pick it up.
    But you cannot do anything if you do not have the labs in 
place to test for the known possible problems. If you have 
that, then you have at least a chance to know that you are 
dealing with something new.
    Senator Akaka. Dr. Erickson.
    Colonel Erickson. Mr. Chairman, your question is an 
excellent one, and it is one that we frequently will discuss 
among ourselves. We have different aspects to our surveillance 
efforts. The syndromic surveillance, which we do in a number of 
areas, is not dependent upon a lab test. It is not dependent 
upon having actual diagnostic tests to know what something is. 
We can use case definitions, syndrome constellation of symptoms 
to determine that there is something going on, there is 
something new. It might look like diarrhea, it might look like 
a respiratory disease, it may have a high fever, etc. And that 
is the first indication of what we can do.
    If I can add to Dr. Hill's comments, the response can start 
at that point. For instance, in the case of SARS, the response 
was started in advance of there being diagnostic capability to 
realize that it was a coronavirus. And so my encouragement is 
that we continue to focus on an approach which builds broad-
based laboratory capability, which enables us to have a 
sufficient number of public health practitioners, 
epidemiologists, etc., build this human capacity so that we can 
respond with the bread and butter, tried and true public health 
responses that will be somewhat generic for many of these new 
types of threats, realizing that we need the lab capability, we 
will need to finally know through molecular microscopy, through 
genetic sequencing, etc., that it is something new, that we are 
now going to call it virus X. But the response can start before 
that, and so I think building the broad public health 
infrastructure at this point is key, because we will not 
necessarily know--I cannot tell you, sir, that we are 
absolutely ready to be able to diagnose something that is new 
because we will not necessarily know. We will have to be 
responding before we know.
    Senator Akaka. Thank you. Dr. Arthur.
    Mr. Arthur. I would like to add one additional aspect. I 
think one of the key elements and one of the things that we are 
very sensitive to and invest a considerable amount of effort at 
CDC, particularly in the Global Disease Detection Operations 
Center, is to look for those events which are unexplained, 
unexpected, unusual, and to use--instead of conventional 
surveillance systems with reporting systems, particularly in 
international settings where those types of infrastructure do 
not--that infrastructure both for reporting and laboratory 
diagnosis do not exist, using media reporting and mining of 
news reports. And you will hear later this afternoon about a 
project, Project Argus, from Dr. Wilson at Georgetown 
University.
    These reports, while they are very non-specific and often 
require verification, are incredibly important as a first alert 
for something unusual happening, something that needs further 
investigation, and then it can be followed up with the 
appropriate laboratory studies, etc.
    But it turns out that in resource-poor countries in many 
parts of the world, the press report or the reporter is one of 
our best surveillance officers. They are highly motivated to 
provide this information, and it gets disseminated very 
broadly, and we focus on picking up those early signals.
    Senator Akaka. Thank you. As you know, because the Chinese 
Government was not forthcoming in reporting cases of SARS and 
avian influenza, these diseases spread more widely and more 
quickly.
    Are you considering incentives to encourage countries to 
report these diseases before they become pandemics? Mr. 
Gootnick.
    Mr. Gootnick. Well, I would refer back to the earlier 
conversation on the International Health Regulations, which, 
amongst other things, is a politically binding document, 
creates an international norm, and is intended to facilitate an 
international response. It is important to recognize that the 
International Health Regulations, while they were adopted by 
the World Health Assembly in 2005, have really just now entered 
into force in 2007, and there is a phase-in period that really 
takes us out to 2012 before there is really a full 
implementation and binding set of agreements and expectations 
that the ability to intervene on the part of the international 
community is implemented.
    And then, even at that, the resources for countries who are 
motivated to take the steps dictated by the International 
Health Regulations are, at the beginning at least, the 
obligation of those sovereign nations.
    Senator Akaka. Thank you. Dr. Arthur.
    Mr. Arthur. I think one of the incentives that we can 
provide to countries is building the capacity for them to be 
transparent and feel comfortable in doing so about an event. If 
something bad is happening in their country, frequently 
countries do not report because it is associated with some 
economic impact--loss of trade, tourism, whatever. By providing 
countries with risk communication skills so that they feel 
comfortable talking to their populace about a particular 
problem, knowing how to say, yes, we have a problem in the 
country, knowing that we have someone standing beside us, 
whether it be WHO or another country that is providing 
assistance, it is not good news, but we are doing something 
about it and we are attempting to do something about, having 
resources available to support epidemiologic investigations and 
laboratory investigations and appropriate interventions from 
the international partners also gives the country some 
confidence then that they are more willing to go forward with 
the information because they are actively doing something in 
the eyes of the global community to contain the event; and, 
more importantly, they are helping their own populace and their 
country.
    Senator Akaka. Dr. Smith.
    Mr. Smith. Yes, sir. Certainly, we are considering 
incentives that we might offer, and the Department of Homeland 
Security might have a little bit different take than the other 
agencies represented here at the table. The exchange of 
information or information sharing that might not otherwise 
happen from the integration of biosurveillance information, 
perhaps not at the WHO level but at a different collection 
level, the sharing of best practices, and some of these will 
branch out into non-traditional means. Certainly, as Dr. Arthur 
has mentioned, there are not necessarily health care workers or 
the public health infrastructure to report up, examination of 
non-traditional sources of information. DHS is involved in the 
trilateral talks and negotiations for counterterrorism and 
presenting the integration of law enforcement and public health 
and agriculture and how that exchange of information can 
actually facilitate reporting and awareness in rural areas or 
outside of metropolitan areas.
    Senator Akaka. Colonel Erickson.
    Colonel Erickson. Mr. Chairman, I just would want to say 
that I wholly agree with my colleagues here in other comments 
already made. My sense is this issue of getting to transparency 
involves a cultural change, and though we can look for 
incentives in the near term, I think we are looking at a 
generational effect. And that is the reason why I think many of 
our programs have training components in them, where, in fact, 
we are training the next generations of laboratorians, 
epidemiologists, public health officials to step into a culture 
where reporting will not be punished, where bad news will not 
be received and bad things will happen to you because you are 
the one that is reporting.
    But that is, in my mind, a cultural change that we need to 
effect through these many efforts that you are hearing about 
today.
    Senator Akaka. Thank you. Dr. Hill.
    Mr. Hill. Just to summarize, I think there are four ways to 
incentivize the kind of reporting you want. I will start with 
the most negative first. Most countries want to be a respected 
member of the international community, but I think that should 
not be our first line of defense. Negative publicity does have 
an impact sometimes.
    Also, second, if we make it very clear that when countries 
do the right thing they will be welcomed into the international 
community, that is a big deal, frankly. And if you think what 
happened last year at the major Beijing conference where China 
was the international host for a big international conference 
to raise funds for avian influenza, at which was discussed how 
do you avoid the kind of thing that happened with SARS, I think 
it was very significant that China was willing to take the lead 
in hosting such a conference. So they clearly want to be a part 
of something that works better than what happened during SARS.
    And then, third, it has been mentioned, but I think it 
needs to be mentioned again: the promise that if you share 
information you are going to receive information is a powerful 
incentive to be up front.
    And, finally, if there is some sense that if you report a 
problem you are going to be helped, the international community 
will help you deal with it, is significant.
    And one last point that relates to the last question. 
Sometimes we get in the habit of thinking everything has a 
technical silver bullet, and I was the one that talked about 
the importance of labs, and I believe in the importance of 
labs. But even if the lab is present, the best labs in the 
world may not be able to identify a new problem. We still do 
not have a solution to HIV. We do not have an HIV vaccine. But 
we know how to prevent it. We know how to contain it.
    If on the front lines globally out in the rural areas we do 
a much better job of communication so that people know what 
they should look for, what they should report immediately, and 
those people take the right action, you can quarantine 
immediately. You can quarantine several square kilometers and 
avoid a problem. That does not require a technological bullet 
solution.
    So there is an awful lot that can be done short of the 
solutions we hope are down the road that will control a lot of 
this much better than in the past.
    Senator Akaka. Well, I want to thank you very much. That is 
a good summary, I think, of this panel. I want to thank all of 
you for your valuable testimony. I look forward to working with 
each of you to ensure that we are aware of potential emerging 
diseases and the threats that could impact the United States. 
And I would ask that our second panel of witnesses then come 
forward, but we may have questions from other Members of this 
Subcommittee that we will submit to you for your responses.
    So thank you very much for your testimonies and your 
responses.
    We welcome the second panel to our Subcommittee hearing: 
Dr. Nathan Flesness, Executive Director, International Species 
Information System; Dr. Daniel Janies, Assistant Professor, 
Department of Biomedical Informatics, Ohio State University 
Medical Center; and Dr. James Wilson, Director, Division of 
Integrated Biodefense, Imaging Science and Information Systems 
Center, Georgetown University.
    Again, it is the custom of this Subcommittee to swear in 
all witnesses, and so I will ask you to rise and raise your 
right hand. Do you solemnly swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Flesness. I do.
    Dr. Janies. I do.
    Dr. Wilson. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Mr. Flesness, will you please proceed with your statement?

    TESTIMONY OF NATHAN R. FLESNESS,\1\ EXECUTIVE DIRECTOR, 
        INTERNATIONAL SPECIES INFORMATION SYSTEM (ISIS)

    Mr. Flesness. Thank you, Chairman Akaka, and thank you for 
this opportunity to testify on the infectious disease 
surveillance role our unprecedented new Zoological Information 
Management System (ZIMS), can play for the United States and 
other countries. It is an honor to be asked to appear and 
valuable to learn from other members of both panels.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Flesness with an attachment 
appears in the Appendix on page 246.
---------------------------------------------------------------------------
    The International Species Information System (ISIS), is a 
34-year-old, U.S.-based nonprofit of international scope. ISIS 
has spent three decades building a worldwide network of 700 
zoos and aquariums which pool detailed animal data on 2 million 
specimens of 10,000 species. Maps and lists of our members are 
attached to my written testimony.
    We currently cover facilities in 73 countries on all six 
occupied continents. This includes 263 ISIS member zoos and 
aquariums in 47 States of the U.S. ISIS is by far the world's 
largest membership organization of zoos and aquariums and 
continues to grow.
    For example, the Indian Government has just announced they 
will sponsor 59 Indian zoos to join ISIS next year.
    Honolulu Zoo Director Ken Redman sends his regards to you, 
Chairman Akaka, and would welcome the opportunity to show you 
how his zoo will use our new ZIMS system to connect to other 
zoos worldwide.
    After several years of fundraising and software 
development, we are now testing this profound transformation in 
our capabilities. Our new Web-based, real-time software, ZIMS, 
will replace our older systems, be online sharing information 
among our members, and keeping watch for zoonotic infectious 
diseases.
    Avian flu is, of course, the current concern, and ZIMS will 
include powerful worldwide monitoring for the different strains 
of avian influenza. But ZIMS will be equally powerful for 
detecting the next disease threat and the ones that will come 
after that. This is a long-term permanent effort to develop 
both situational awareness and an early-warning system for all 
zoonotic diseases.
    In fact, if you were going to imagine an ideal zoonotic 
disease biosurveillance system which could help stand watch in 
countries around the world, in my mind it would monitor 
thousands of species of animals, daily or hourly, to be sure to 
include vulnerable hosts for any threatening disease. It would 
use already trained and paid veterinary wildlife professionals 
for this monitoring. It would monitor animals in hundreds of 
urban centers worldwide where, in fact, most humans are. It 
would have already established broad international data-sharing 
cooperation and a culture of trust. It would have all data on 
the Web in real time. It would have enormous detail, such as 
vaccination history of each specimen stored serum samples, and 
so on. And it would be primarily privately supported.
    Of course, the system I am talking about is the one we are 
finishing called ZIMS. After 3 years of design and development, 
it is now in testing and will roll out worldwide starting July 
2008.
    You have already noted, Chairman, that the zoo community 
has demonstrated its considerable power to spot new and 
emerging diseases with the story about West Nile virus. With 
ZIMS, they will be able to do so even more rapidly in real 
time.
    When the next human pandemic outbreak happens, it will come 
from and affect animals. It may be a disease we have already 
worried about, or it may be one we have never noticed before. 
ZIMS will give countries around the world valuable additional 
power to spot the next threat early, whether it is an old or a 
new disease.
    To make this real, consider the following hypothetical 
scenario. On a Thursday morning, an animal keeper named Susie 
Chi, working at a Southeast Asian zoo, makes her morning rounds 
and observes with concern that the leopards in two different 
exhibits look ill. She radios the veterinarian, Dr. Paulo, and 
stops by her desk to enter these observations into ZIMS. 
Receiving the call, Dr. Paulo checks ZIMS for the best 
anesthesia drugs and doses and then does a hands-on physical. 
He draws blood samples and orders the animals moved to the 
hospital. His assistant enters the data into ZIMS while Dr. 
Paulo does some preliminary blood work. He sees anomalies he 
does not recognize and sends the sample by courier to the local 
university lab.
    Dr. Paulo then searches in ZIMS to see what problems other 
ISIS members have with leopards recently. He notes one very 
recent and troubling case of a similar problem of unknown cause 
reported a few days earlier. Over the next few hours, Dr. Paulo 
sees in ZIMS that a nearby zoo is now reporting similarly ill 
leopards and, more alarmingly, problems with other big cats.
    By the close of this first day, the ISIS-ZIMS 
epidemiological scanning program automatically detects an 
unusual pattern of animals becoming ill within a short time in 
the same geographical area. An ISIS staff veterinary 
epidemiologist is automatically alerted. She calls Dr. Paulo 
and confirms there are grounds for concern and learns the 
disturbing fact that both of the animal keepers involved have 
just called in sick. She advises Dr. Paulo on local useful 
governmental, CDC, OIE, and WHO contacts and triggers an alert 
to ISIS partner agencies. Less than 24 hours have passed since 
that first animal was noted sick on the other side of the 
world.
    To develop ZIMS, ISIS had meetings with the World 
Organization for Animal Health, the new European Union CDC in 
Stockholm, CDC Atlanta, Homeland Security, and other agencies. 
They have helped us see just how unique and powerful ZIMS will 
be. No one has ever built an internationally adopted, 
computerized, lifetime medical records system for humans or 
animals before. To our surprise (to be honest), ISIS-ZIMS seems 
to be the first.
    We have built ZIMS mostly with private funds, primarily 
from our member institutions. Currently, we are working with 
NBIC officials to design a framework for sharing ZIMS data and 
are cooperating on standards and compatibility. We look forward 
to NBIC's support for ZIMS training and rapid rollout to 25 
major U.S. metro areas in key sites abroad. We are also hoping 
for NBIC's support to hire staff to watch for and interpret 
data patterns, and we hope to borrow the disease detection 
algorithms.
    While ISIS currently has robust global coverage, we are 
also seeking an additional $2 million a year to cover far more 
institutions and cities in Latin America, Asia, and Africa, and 
be online standing watch in those regions.
    A couple of points to leave you with in closing. As you 
have already noted, it is experts in our network who are 
finding diseases such as West Nile virus early. It takes 
decades to build the broad cooperation we already have. ZIMS is 
mostly privately funded and represents a $25 million 
investment. ZIMS offers the Federal Government an enormous 
opportunity to leverage private sector capability with a modest 
Federal investment and add an additional, effective, global 
zoonotic disease surveillance system to our pandemic defenses 
quickly. Thank you very much.
    Senator Akaka. Thank you very much, Mr. Flesness. Now we 
will hear from Dr. Janies.

  TESTIMONY OF DANIEL A. JANIES, PH.D., ASSISTANT PROFESSOR, 
  DEPARTMENT OF BIOMEDICAL INFORMATICS, OHIO STATE UNIVERSITY 
                         MEDICAL CENTER

    Dr. Janies. Thank you, Chairman Akaka. I am an Assistant 
Professor in the Department of Biomedical Informatics at the 
Ohio State University. My current research concerns the global 
spread of emergent infectious diseases. This work involves the 
use of large-scale computations on genetic and geographic data 
derived from viruses and their hosts, both animal and human. I 
received a Bachelor of Sciences degree in biology from the 
University of Michigan and a Ph.D. in zoology from the 
University of Florida. I worked as a postdoctoral fellow and a 
principal investigator at the American Museum of Natural 
History in New York City where, with funding from NASA and the 
city, we built one of the largest computers used in biological 
research.
    At Ohio State and the museum, we are using public databases 
of genetic sequences from viruses isolated from human and 
animal hosts. Just as deciphering an enemy code can provide 
warning of an attack, we are decoding the genetic sequences of 
emergent viruses in order to protect our citizens and food 
supplies.
    We are interested in genetic codes such as mutations that 
confer drug resistance among viruses and permit viruses that 
were once restricted to animal hosts to infect humans. With 
funding from DARPA, we have created a computational system to 
rapidly compare genetic sequences and return a global map 
depicting the spread of viruses carrying key mutations over 
hosts, time, and geography.
    As demonstrated by the success in stopping SARS, the rapid 
collection and dissemination of sequence data throughout the 
research community are key components in the fight in emergent 
diseases. Decision makers and the research community must work 
together to translate raw data into actionable knowledge. We 
have developed the information technology to track the stepwise 
movement of diverse strains of viruses over different countries 
and among various hosts. We monitor the spread of dangerous 
strains of viruses that are resistant to drugs or are able to 
infect human and animal populations. Regional threats are 
forecast based on the distribution of these dangerous strains 
with respect to population centers, farms, and areas of 
military deployment.
    As we scale our computational infrastructure and staff, we 
are able to rapidly add new data on a variety of agents of 
infectious disease and generate knowledge on which preemptive 
measures are important. Our maps, as depicted in this graphic 
here, are useful for understanding the complex mixture of 
processes that spread disease in various regions. For example, 
in Indonesia it is clear that chickens are responsible for 
spreading avian influenza--in this map, chicken-hosted viruses 
are depicted in blue lines--whereas in other areas, such as 
Central China, migratory birds are important. In this graphic, 
strains of avian influenza that are hosted by ducks and other 
migratory birds are depicted in red lines.
    However, illegal trade is also a concern. There was an 
interesting case in 2004, where an eagle infected with avian 
influenza was smuggled from Thailand to Belgium. While this 
infected eagle was quickly confined and the virus did not 
spread at that point, that case appears as a clear anomaly in 
our map, betraying an instance where illegal trade allowed 
avian influenza to make a huge geographic leap. I would like to 
turn your attention to the large green line showing the strain 
of avian influenza infecting the smuggled eagle is actually 
related very closely to Thai strains, and the geographic reach 
of that line is anomalous with respect to the other lines. 
Anomalies such as this provide means to detect illegal trade 
processes carrying avian influenza.
    Furthermore, using methods we have developed, we can detect 
and visualize gaps in the available data that represent 
undersurveyed regions or underreporting. Even though we have 
made tremendous analytical advances, a significant portion of 
the data on avian influenza remains in private hands. Among the 
reasons for the lack of data sharing include the career 
aspirations of scientists who want first crack at the data and 
the interests of nations to assure that their citizens will 
have access to vaccines.
    In light of the severity of the health and economic issues 
surrounding influenza, we have tried to change the model for 
data sharing via collaboration and co-authorship with 
international colleagues who work in the field and are 
providers of key viral strains for sequencing. These efforts 
have been exemplified by the Influenza and Coronavirus Genome 
Sequencing Projects, who are funded by the NIAID under a 
mandate to share data within 45 days of collection.
    I realize that data-sharing issues are complex and that a 
balance of competition and collaboration is natural, both in 
science and international relations. We will use the data 
security concepts that have been developed to protect the 
privacy of patients while allowing clinical research to move 
forward in the context of data sharing on emergent diseases.
    For example, cancer research is currently being accelerated 
by a data-sharing and analysis initiative of the NCI called the 
Biomedical Informatics Grid. We will apply the same underlying 
software for analysis and mapping of infectious diseases.
    Mr. Chairman, I am pleased to have had a chance to discuss 
these issues with you today and I welcome questions.
    Senator Akaka. Thank you very much, Dr. Janies. Dr. Wilson.

TESTIMONY OF JAMES M. WILSON V, M.D.,\1\ DIRECTOR, DIVISION OF 
INTEGRATED BIODEFENSE, IMAGING SCIENCE AND INFORMATION SYSTEMS 
              (ISIS) CENTER, GEORGETOWN UNIVERSITY

    Dr. Wilson. Good afternoon, Mr. Chairman. I appreciate the 
opportunity to testify about Project Argus, the biosurveillance 
priming system developed and implemented at Georgetown 
University's ISIS Center. Argus is designed to detect and track 
early indications and warnings of foreign biological events 
that may represent threats to global health and national 
security. Argus serves a ``tipping function'' designed to alert 
its users to events that may require action, but it does not 
determine whether or what types of actions should be taken.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Wilson appears in the Appendix on 
page 254.
---------------------------------------------------------------------------
    In the summer of 2004, the Intelligence Technology 
Innovation Center (ITIC), and the Department of Homeland 
Security funded our research and development of a foreign 
biological event detection and tracking capability called 
Argus. Argus is based on monitoring social disruption. Local 
societies are highly sensitive to perceived emergence of 
biological threats, and the resulting conditions and responses 
are readily identifiable through a granular review of local 
sources of information.
    Argus specifically focuses on three types of indications 
and warnings: Environmental conditions conducive to outbreak 
triggering; reports of disease outbreaks in humans or animals; 
and markers of social disruption such as school closings or 
infrastructure overloads.
    The system is built on advanced operational social 
disruption and event evolution theory; unique disease event 
staging and warning; a defined doctrine of biosurveillance; 
real-time, high-performance Internet technologies; advanced 
modeling and linguistics capabilities; visualization and 
modeling capabilities; and disease propagation modeling.
    Argus analysts focused on identifying trends in disease and 
on social behaviors associated with such events and are 
accessing over a million pieces of information daily worldwide. 
They produce, on average, 200 reports per day. Using a disease 
event warning system modeled after NOAA's National Weather 
Service, we issue on average 15 advisories, 5 watches, and 2 
warnings at any given time, with 2,200 individual case files of 
socially disruptive biological events maintained and monitored 
daily in over 170 countries involving 130 diseases affecting 
animals or humans.
    To facilitate operational validation, we initiated an 
unofficial Biological Indication and Warning Analysis Community 
(BIWAC), which reviews our reporting requirements quarterly to 
ensure proper product alignment with the user. The BIWAC now 
includes CDC's Global Disease Detection team, whom you have 
heard from today; USDA's Centers for Epidemiology and Animal 
Health; DHS' National Biosurveillance Integration Center; the 
Armed Forces Medical Intelligence Center; other Intelligence 
Community organizations; the Defense Threat Reduction Agency; 
and the U.S. Strategic Command Center for Combating Weapons of 
Mass Destruction.
    To enhance this process, we activated a new Internet 
portal, Project Wildfire, where Argus-derived warnings and 
watches are posted to facilitate unclassified dialogue among 
the BIWAC partners. Wildfire, although experimental, has 
attracted a substantial amount of Federal use. The Argus 
Watchboard has an audience from 100 organizations, including 
State of Colorado officials and the DC Department of Health.
    There is a significant degree of uncertainty surrounding 
biological event indications until ground verification has been 
obtained. Time is critical, and developing an approach to 
integrated, federally facilitated ground verification is 
important.
    As examples, Argus has served as the lead tactical global 
event detection team for H5N1 avian influenza; provided daily 
situational awareness reports to tsunami-related humanitarian 
responders; notified the U.S. Government of undiagnosed 
vesicular disease in cattle in the United Kingdom, later 
diagnosed as hoof-and-mouth disease; and reported indications 
of the current Ebola epidemic in the Congo.
    Eight months ago, the Argus team identified hundreds of 
reports of an H3N2 influenza virus that has possibly drifted 
away from the current vaccine strain and collaboratively worked 
with CDC to track this important finding. The value of this 
information was validated when the WHO and its partners 
recommended a change in the Southern hemisphere influenza 
vaccine to include an updated H3N2 strain.
    Argus reached full operational capability in July 2007, but 
there are challenges ahead. Funding for Argus is currently 
secure only through July 2008. We hope that you will agree that 
Argus should be maintained well beyond that date.
    This global biosurveillance resource needs to be 
operational within the United States. Because of our funding 
source, we are prohibited from monitoring domestically. DHS 
recently issued a sole-source request for a proposal to 
initiate work on Project Hyperion, but it has not yet been 
funded. That needs to happen.
    There remains an important need for continued enhancements 
of Argus. The methodology can be made sensitive to nuclear, 
radiological, chemical, terrorist, and natural events. Also, 
the current Argus network does not fully incorporate wildlife 
disease outbreaks; therefore, we have approached the Wildlife 
Conservation Society.
    Finally, decisions need to be made about dissemination of 
Argus-generated information.
    Thank you again for this opportunity to testify. I stand 
ready to answer any questions you may have.
    Senator Akaka. Thank you very much, Dr. Wilson.
    What steps do you think should be taken to better integrate 
human and animal emerging disease surveillance? Mr. Flesness.
    Mr. Flesness. Thank you, sir. I think, sir, that meetings 
like this that happen informally behind this podium, where the 
people with various parts of the solution could work together 
and be encouraged to combine those efforts would be extremely 
productive.
    Senator Akaka. Thank you. Dr. Janies.
    Dr. Janies. I concur with Mr. Flesness. I think the common 
framework we have developed in using genetic data is actually 
very important, because the viruses do not care if they are 
infecting humans or animals, they are just DNA ORRNA hitching a 
ride across different organisms. Thus a genetic approach 
provides commonality. Similarly we are using an open-source 
solution for sharing data. Much like HTML is interoperable on 
all Web browsers, we are using KML, a language for sharing 
geospatial data, which is interoperable throughout all 
geospatial browsers such as used by Argus.
    Senator Akaka. Dr. Wilson.
    Dr. Wilson. Sir, I am in vigorous agreement with the prior 
answers that have been given here. Networking is critical. 
Collaboration is critical. We cannot function in a vacuum at 
Argus. As powerful as this capability is, it is useless without 
collaboration. And I hope that you will see, too, that even 
with the panel here today, everyone has a unique competency, a 
unique skill set that is being brought to the table. The world 
of biosurveillance is beginning to speciate, if you will. There 
are a lot of unique expertise and disciplines and competencies 
evolving that all have to work together, a lot of different 
parts to a well-tuned engine, so to speak.
    So we have to work together and we have to drop any kind of 
stovepiping mentality, in the interest of the mission.
    Senator Akaka. Thank you, Dr. Wilson.
    Mr. Flesness, how can ZIMS be useful to NBIC? And how do 
you believe DHS can use ZIMS data to identify and dissipate the 
emergence of new diseases that are transferred from animals to 
humans?
    Mr. Flesness. Thank you, Mr. Chairman. I believe that ISIS' 
new ZIMS system can help NBIC by providing, as it were, an 
extra layer of information focusing on incredibly intensively 
watched animals located primarily in urban centers with a 
little bit of diffusion because of the interests and projects 
of the veterinarians that work with the zoo animals that are 
often involved in wild animal projects outside the city. That 
gives us sort of a fuzzy dot in 700 cities around the world, 
and I think detecting both syndromics early on--because we have 
a very rapid response system since it is real-time--and, 
second, as the cases develop and there is more and hard 
information available, and the fact that we have a culture of 
sharing already established, we think we have quite a resource 
and quite a unique international resource to help NBIC and 
hopefully its equivalents in other countries around the world 
make sense of and confirm patterns of data provided to them.
    Senator Akaka. Thank you.
    Dr. Wilson, you mentioned some of the governmental 
consumers of data collected by Argus. It seems that the 
information you collect and analyze would be valuable to a 
broader spectrum of users, including those at the State and 
local levels and the public health community.
    Are there any plans to expand access to Argus information 
and, in particular, the similar reports of your product and of 
what you produce?
    Dr. Wilson. Yes, sir. That is the key question, Mr. 
Chairman. Our team believes that this technology is going to 
change the way that we do business in biosurveillance, at least 
in the foreign arena. However, it has to be done in partnership 
with people, so we strongly value our partnerships with the 
Federal Government, as we have mentioned in our testimony, and 
we value their input and guidance for how best to extend the 
information to State and local authorities as well as other 
countries and NGOs.
    I am not a fan of rolling out disruptive technology like 
this before it is ready. This program needs a lot of human 
time. It needs basically for me to sit down with, say, city 
officials in San Francisco and say, Folks, how do you do 
business? How might this information help you? When is it too 
much information? What are your reporting priorities? What are 
your concerns? How many people do you have to do this? Do you 
have the bandwidth to handle receiving this information?
    At the end of the day--and it may take us years to get 
there--this information has to get all the way down to the 
individual health care provider regardless of what organization 
they belong to, and that includes veterinarians as well as 
agriculturalists. To get there from here, though, again, this 
is going to require a lot of culture change, a lot of dialogue, 
a lot of socialization of the technology, and that is just 
something that you really just cannot rush.
    The problem, of course, that we have is that Mother Nature 
may not wait for that, so we are kind of in a race against 
time, if you will, to figure out the best solution possible. 
And this is why we do this with our partners, and we do not 
operate in a vacuum.
    Senator Akaka. Thank you.
    Dr. Flesness, human disease surveillance in developing 
countries is traditionally weak. This is why programs such as 
those implemented by AID, CDC, and DOD are so important. 
However, one could imagine that animal disease surveillance in 
developing countries is even more weak.
    What are your thoughts about bringing ZIMS to developing 
countries and in helping these countries develop better disease 
surveillance?
    Mr. Flesness. Thank you, Mr. Chairman. ISIS has been 
expanding its membership network for the 34 years it has 
existed, and we attend national and regional conferences of the 
zoos in Latin America, Asia, Africa, and so on. So we have 
gotten to know many of the people in the institutions who would 
like to become members of this global network. So we know that 
there is interest and will and even friendships.
    The two obstacles that remain are essentially financial: 
One is access to technology and technology transfer. That is 
both IT and lab and veterinary. And the other is our annual 
membership dues, which average about $4,000 per year per 
institution. In the developing world, that is a problem. There 
are about 500 institutions that we do not yet have to add to 
our 700. We estimate there are 1,200 quality zoos and aquariums 
in the world. We would like to bring them in. That would 
require a couple of million dollars a year subsidy.
    Senator Akaka. Yes. Well, I want to thank all of our 
witnesses. It is my hope that the work each of your 
organizations is doing will help our country and the U.S. 
public health officials ensure that any potential health threat 
to Americans is caught early and dealt with effectively. As 
with all programs, there is always room for improvement. I hope 
that the discussion of these activities today has helped 
identify some of those places where more work can be done. 
Situational awareness is central to our efforts to secure the 
homeland. Global disease surveillance is very much a part of 
these efforts. We must ensure that these activities are 
effective and also that they yield results, particularly over 
the long term. And your contribution to this hearing will 
certainly be helpful in our work in bringing this about.
    I want to thank you all. There may be questions from other 
Members who will submit them for your responses. I want to 
thank you for being part of this hearing and contributing as 
you have. The hearing record will be open for 1 week for these 
Members to ask questions.
    The hearing is adjourned.
    [Whereupon, at 4:16 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN

                            October 4, 2007

    Thank you, Mr. Chairman.
    And thank you for holding this important hearing on the United 
States' preparedness and efforts to combat infectious disease. As 
stated by Dr. Margaret Chan, director of the World Health Organization, 
``International public health security is both a collective aspiration 
and a mutual responsibility.''
    A growing world population combined with the ease of global travel 
and a warming planet has lowered the barriers to the spread of 
infectious disease and now more than ever the United States must work 
cooperatively to identify and effectively respond to emerging threats. 
As our panel of witnesses illustrates a number of agencies are working 
on securing the United States by building capacity for the surveillance 
and detection of emerging infectious diseases overseas. The GAO report 
released in conjunction with this hearing says that the U.S. has 
invested approximately $84 million in this effort over the last two 
years. However, thee is still work to be done.
    Not only are diseases emerging at an unprecedented rate, but an 
overwhelming proportion of these diseases are zoonotic. Avian 
influenza, West Nile, SARs, and HIV/AIDS are recent and devastating 
examples of the impact animal born diseases can have when they 
transition to humans.
    The appearance of zoonotic diseases in humans is prevalent in 
developing countries, where trade in wild animals is concentrated. 
Therefore, ti is important for the U.S. to have a strong presence in 
these countries to allow for the training of individuals and the 
sharing of data. USAID and CDC have been successfully collaborating 
with the Wildlife conservation Society through the Global Avian 
Influenza Network for Surveillance (GAINS) in 28 countries detecting 
disease in wild bird populations.
    While this disease specific program has proven successful it is 
just the tip of the iceberg--a key to preventing a pandemic is early 
detection. Surveillance of an array of wildlife populations will 
increase our ability to fight the next emerging disease as we will have 
a better understanding of our enemy. For this reason, my colleagues, 
Senators Akaka and Brownback, and I have introduced legislation to 
expand the collaboration of USAID and CDC with the Wildlife 
Conservation society to address the need for a global wildlife disease 
surveillance system.
    We must prevent the outbreak and spread of new zoonotic diseases 
that have no treatments or cures to save the next generation from 
suffering the pain millions have faced from HIV/AIDS and avian 
influenza.
    Thank you, Mr. Chairman.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>
</pre></body></html>
